APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Federal Circuit, Arctic Cat Inc. v.
Bombardier Recreational Products, Inc.,
No. 19-1080 (Feb. 19, 2020)......................... App-1
Appendix B
Order on Cross-Motions for Summary
Judgment, United States District Court
for the Southern District of Florida,
Arctic
Cat
Inc.
v.
Bombardier
Recreational Products, Inc., No. 14-CV62369 (Aug. 10, 2018) ................................ App-14
Appendix C
Opinion, United States Court of Appeals
for the Federal Circuit, Arctic Cat Inc. v.
Bombardier Recreational Products, Inc.,
No. 17-1475 (Dec. 7, 2017)......................... App-34
Appendix D
Order Denying Judgment as a Matter of
Law, United States District Court for the
Southern District of Florida, Arctic Cat
Inc. v. Bombardier Recreational Products,
Inc., No. 14-CV-62369 (May 31, 2016) ...... App-69
Appendix E
Order, United States District Court for
the Southern District of Florida, Arctic
Cat Inc. v. Bombardier Recreational
Products, Inc., No. 14-CV-62369 (July 27,
2016)........................................................... App-95

ii
Appendix F
Order, United States Court of Appeals for
the Federal Circuit, Arctic Cat Inc. v.
Bombardier Recreational Products, Inc.,
No. 19-1080 (Apr. 20, 2020) .................... App-120
Appendix G
Relevant Statutory Provision.................. App-122
35 U.S.C. § 287 .................................. App-122

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________
No. 19-1080
________________
ARCTIC CAT INC.,
v.

Plaintiff-Appellant,

BOMBARDIER RECREATIONAL PRODUCTS INC.,
BRP U.S. INC.,
Defendants-Appellees.
________________
Filed: Feb. 19, 2020
________________
Before: LOURIE, MOORE, and STOLL,
Circuit Judges.
________________
OPINION
________________
LOURIE, Circuit Judge.
Arctic Cat Inc. (“Arctic Cat”) appeals from a
judgment of the United States District Court for the
Southern District of Florida that Arctic Cat is not
entitled to recover pre-complaint damages from
Bombardier
Recreational
Products
Inc.
(“Bombardier”) due to the failure of Arctic Cat’s
licensee to mark products in accordance with 35
U.S.C. § 287. Arctic Cat Inc. v. Bombardier

App-2
Recreational Prods., 334 F. Supp. 3d 1238, 1240 (S.D.
Fla. 2018). Because we agree with the district court
that § 287 continues to limit damages after a patentee
or licensee ceases sales of unmarked products, and
that willful infringement does not establish actual
notice under § 287, we affirm.
BACKGROUND
Arctic Cat owns U.S. Patents 6,793,545 (“the ‘545
patent”) and 6,568,969 (“the ‘969 patent”), which are
directed to thrust steering systems for personal
watercraft (“PWCs”). The ‘545 and ‘969 patents issued
in 2004 and 2003 respectively, but Arctic Cat had
stopped selling PWCs before either patent issued. In
2002, Arctic Cat entered into a license agreement with
Honda for several Arctic Cat patents and patent
applications, as well as any later patents “that
patentably cover Arctic Cat’s Controlled Thrust
Steering methods, systems, and developments,” which
includes the ‘545 and ‘969 patents. J.A. 256 ¶ GG; see
J.A. 4078. The initial draft of the license agreement
included a provision requiring Honda, as licensee, to
mark all licensed products with the applicable patent
numbers. However, that provision was deleted during
negotiations, and the final version of the license
agreement expressly stated that Honda had no
marking obligations.
Thereafter, Honda began making and selling
unmarked PWCs, and Arctic Cat made no effort to
ensure that PWCs sold by Honda were marked. The
parties dispute when Honda stopped selling
unmarked products under its license with Arctic Cat,
but Arctic Cat asserts that Honda stopped selling
unmarked products no later than September 6, 2013,

App-3
approximately one year before Arctic Cat sued
Bombardier. Bombardier contends that Honda
continued to sell PWCs under the Arctic Cat license as
late as 2018.
On October 16, 2014, Arctic Cat sued Bombardier
for infringement of various claims of the ‘545 and ‘969
patents. Before trial, Bombardier moved to limit
Arctic Cat’s potential damages because of Honda’s
sales of unmarked products. The district court held
that Bombardier, as defendant, bore the burden of
proving that Honda’s PWCs practiced the asserted
claims and, because that proof was lacking, denied
Bombardier’s motion.
At trial, the jury found Arctic Cat’s patents not
invalid, awarded Arctic Cat a royalty to begin on
October 16, 2008—six years before Arctic Cat filed
suit—and found that Bombardier had willfully
infringed the asserted claims. After post-trial briefing,
as relevant here, the district court denied
Bombardier’s renewed motion for judgment as a
matter of law on marking and willfulness. As to
marking, the district court held that Bombardier had
failed to meet its burden of proving that Honda’s
PWCs practiced the asserted claims. Bombardier
appealed to this court. See Arctic Cat Inc. v.
Bombardier Recreational Prods. Inc., 876 F.3d 1350
(Fed. Cir. 2017) (“Arctic Cat I”).
On appeal, we affirmed as to willfulness but
vacated and remanded as to marking. Id. at 1369.
Specifically, we determined that the district court
erred in placing the burden on Bombardier to prove
that the Honda PWCs practiced the claimed invention.
We held that once an alleged infringer identifies

App-4
products that it believes are unmarked patented
articles subject to the notice requirements of § 287, the
patentee bears the burden of proving that the
identified products do not practice the claimed
invention. Id. at 1368. Accordingly, we vacated the
district court’s judgment as to marking and remanded
to allow Arctic Cat an opportunity to establish that the
Honda PWCs do not fall within the asserted claims.
On remand, Arctic Cat conceded that it could not
show that the Honda PWCs do not practice the
asserted claims, J.A. 5065 ¶ K; J.A. 589, but
nonetheless moved for summary judgment that it is
entitled to receive pre-complaint damages. First,
Arctic Cat argued that the damages limitation of 35
U.S.C. § 287 applies only while a patentee is actively
making, using, or selling unmarked products. Thus,
Arctic Cat argued, § 287 did not apply after the time
that it alleges Honda stopped selling unmarked
products, and Arctic Cat is therefore entitled to
damages during the period after the cessation of
Honda’s sales but before the filing of its suit against
Bombardier. More ambitiously, Arctic Cat also argued
that it is entitled to damages for the full six-year
period prior to suit allowed under 35 U.S.C. § 286—
including for the period during which Honda was
undisputedly selling unmarked products—because
the jury’s finding of willful infringement is sufficient
to demonstrate actual notice under § 287.
In its own motion for summary judgment,
Bombardier argued that Honda’s PWCs were
unmarked patented articles and Arctic Cat failed to
provide constructive or actual notice under § 287, and
Arctic Cat therefore cannot receive any pre-complaint

App-5
damages. Bombardier argued that noncompliance
with § 287 can be cured only by either beginning to
mark or providing actual notice to an alleged
infringer.
The district court granted summary judgment in
favor of Bombardier, and Arctic Cat appealed. We
have jurisdiction under 28 U.S.C. § 1295(a)(1).
DISCUSSION
We review a district court’s grant of summary
judgment according to the law of the regional circuit.
Kaneka Corp. v. Xiamen Kingdomway Grp. Co., 790
F.3d 1298, 1303 (Fed. Cir. 2015) (citing Halo Elecs.,
Inc. v. Pulse Elecs., Inc., 769 F.3d 1371, 1377 (Fed. Cir.
2014)). The Eleventh Circuit reviews grants of
summary judgment de novo. Myers v. Bowman, 713
F.3d 1319, 1326 (11th Cir. 2013). Summary judgment
is appropriate when “there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56.
In this appeal, we are tasked with interpreting
the marking statute, 35 U.S.C. § 287. Statutory
interpretation is a question of law that we review de
novo. Wyeth v. Kappos, 591 F.3d 1364, 1369 (Fed. Cir.
2010) (quoting Glaxo Operations UK Ltd. v. Quigg, 894
F.2d 392, 395 (Fed. Cir. 1990)).
I
Section 287(a) provides in pertinent part:
Patentees, and persons making, offering for
sale, or selling within the United States any
patented article for or under them, or
importing any patented article into the
United States, may give notice to the public

App-6
that the same is patented . . . by fixing
thereon the word “patent” . . . . In the event of
failure so to mark, no damages shall be
recovered by the patentee in any action for
infringement, except on proof that the
infringer was notified of the infringement and
continued to infringe thereafter, in which
event damages may be recovered only for
infringement occurring after such notice.
Filing of an action for infringement shall
constitute such notice.
The notice provisions of § 287 do not apply to
patents directed to processes or methods. See Wine Ry.
Appliance Co. v. Enterprise Ry. Equip. Co., 297 U.S.
387, 395 (1936). Nor do they apply when a patentee
never makes or sells a patented article. Id. at 398.
Thus, a patentee who never makes or sells a patented
article may recover damages even absent notice to an
alleged infringer. If, however, a patentee makes or
sells a patented article and fails to mark in accordance
with § 287, the patentee cannot collect damages until
it either begins providing notice or sues the alleged
infringer—the ultimate form of notice—and then only
for the period after notification or suit has occurred.
Thus, a patentee who begins selling unmarked
products can cure noncompliance with the notice
requirement—and thus begin recovering damages—
by beginning to mark its products in accordance with
the statute. See Am. Med. Sys., Inc. v. Med. Eng’g
Corp., 6 F.3d 1523, 1537 (Fed. Cir. 1993).
A patentee’s licensees must also comply with
§ 287. See Arctic Cat I, 876 F.3d at 1366 (citing
Maxwell v. J. Baker, Inc., 86 F.3d 198, 1111 (Fed. Cir.

App-7
1996)). While courts may consider whether the
patentee made reasonable efforts to ensure third
parties’ compliance with the marking statute, id., here
Arctic Cat’s license agreement with Honda expressly
states that Honda had no obligation to mark. J.A. 4081
¶ 6.01; J.A. 259 ¶ JJ. Thus, it is does not excuse Arctic
Cat’s lack of marking that it is Arctic Cat’s licensee,
rather than Arctic Cat itself, who sold unmarked
products.
A patentee who makes or sells patented articles
can satisfy the notice requirement of § 287 either by
providing constructive notice—i.e., marking its
products—or by providing actual notice to an alleged
infringer. Gart v. Logitech, Inc., 254 F.3d 1334, 1345
(Fed. Cir. 2001). “Actual notice requires the
affirmative communication of a specific charge of
infringement by a specific accused product or device.”
Amsted Indus. Inc. v. Buckeye Steel Castings Co., 24
F.3d 178, 187 (Fed. Cir. 1994).
This case presents a discontinuous situation in
which unmarked products were sold, such that Arctic
Cat could not receive damages before providing notice,
but the sales of unmarked products allegedly stopped
for a period of time prior to the filing of Arctic Cat’s
complaint. Thus, the issue presented is whether the
cessation of sales of unmarked products excuses
noncompliance with the notice requirement of § 287
such that a patentee may recover damages for the
period after sales of unmarked products ceased but
before the filing of a suit for infringement. We hold
that it does not.
Arctic Cat argues that, because § 287 is written in
the present tense, the statute by its terms only applies

App-8
while a patentee is “making, offering for sale, or
selling” its products. Thus, according to Arctic Cat, the
statute limits damages only during periods when the
patentee is actually making, offering for sale, or
selling the patented article. Bombardier responds
that, to begin recovering damages after sales of
unmarked products have begun, § 287 requires that a
patentee either begin marking its products or provide
actual notice to an alleged infringer; cessation of sales
of unmarked products is not enough. We agree with
Bombardier.
We begin with the language of the statute.
Duncan v. Walker, 533 U.S. 167, 172 (2001). While
§ 287 describes the conduct of the patentee in the
present tense, the consequence of a failure to mark is
not so temporally limited. Section 287 provides that
“in the event of failure so to mark, no damages shall
be recovered by the patentee in any action for
infringement, except on proof that the infringer was
notified of the infringement and continued to infringe
thereafter” (emphasis added). The statute thus
prohibits a patentee from receiving any damages in a
subsequent action for infringement after a failure to
mark, rather than merely a reduced amount of
damages in proportion to the amount of time the
patentee was actually practicing the asserted patent.
Arctic Cat’s obligation to mark arose when its
licensee began selling patented articles. The cessation
of sales of unmarked products certainly did not fulfill
Arctic Cat’s notice obligations under § 287, nor did it
remove the notice requirement imposed by the statute.
The notice requirement to which a patentee is
subjected cannot be switched on and off as the

App-9
patentee or licensee starts and stops making or selling
its product. After all, even after a patentee ceases
sales of unmarked products, nothing precludes the
patentee from resuming sales or authorizing a licensee
to do so. In the meantime, unmarked products remain
on the market, incorrectly indicating to the public that
there is no patent, while no corrective action has been
taken by the patentee. Confusion and uncertainty may
result. Thus, once a patentee begins making or selling
a patented article, the notice requirement attaches,
and the obligation imposed by § 287 is discharged only
by providing actual or constructive notice.
This reading of § 287 comports with the purpose
of the marking statute. The policy of § 287 is to
encourage marking, not merely to discourage the sale
of unmarked products. We have explained that the
notification requirement of § 287 “serves three related
purposes: (1) helping to avoid innocent infringement;
(2) encouraging patentees to give public notice that the
article is patented; and (3) aiding the public to identify
whether an article is patented.” Arctic Cat I, 876 F.3d
at 1366 (citing Nike, Inc. v. Wal-Mart Stores, Inc., 138
F.3d 1437, 1443 (Fed. Cir. 1998)). Requiring a
patentee who has sold unmarked products to provide
notice in order to begin recovering damages advances
these objectives by informing the public and possible
infringers that the article is patented. Arctic Cat’s
proposed interpretation, on the other hand, would
undermine these objectives. In Arctic Cat’s view, § 287
should be read to allow a patentee to mislead others
that they are free to make and sell an article that is
actually patented, but nonetheless allow the patentee
to recover damages without undertaking any
corrective action. We reject this view.

App-10
In American Medical Systems, 6 F.3d at 1537, we
interpreted § 287 to allow a patentee who had sold
unmarked products to begin recovering damages after
the patentee began marking. Otherwise, a patentee
who has sold unmarked products would have no
incentive to begin marking, contrary to the objective
of the statute. Here, where Honda merely stopped
selling unmarked products but Arctic Cat otherwise
took no action to remedy prior noncompliance or to
provide notice that the articles were actually
patented, Arctic Cat never complied with the notice
requirement of § 287 and thus cannot recover
damages for any period prior to the filing of its
complaint.
II
Arctic Cat also argues that, regardless of its
failure to mark, it should nevertheless recover the
maximum amount of pre-suit damages allowed by 35
U.S.C. § 286 because the jury’s finding that
Bombardier willfully infringed the asserted claims
should be sufficient to establish actual notice under
§ 287. Arctic Cat acknowledges, as it must, that this
argument is foreclosed by our precedent. In Amsted
Indus. Inc. v. Buckeye Steel Castings Co. we held that
the determination whether a patentee provided actual
notice under § 287 “must focus on the action of the
patentee, not the knowledge or understanding of the
infringer,” and that “[i]t is irrelevant . . . whether the
defendant knew of the patent or knew of his own
infringement.” 24 F.3d 178, 187 (Fed. Cir. 1994) (citing
Am. Med. Sys., Inc., 6 F.3d at 1537 n.18)). Accordingly,
we reject Arctic Cat’s argument.

App-11
Aside from our inability to reverse the decision of
an earlier panel, see Newell Cos., Inc. v. Kenney Mfg.
Co., 864 F.2d 757, 765 (Fed. Cir. 1988), we reiterate
the conclusion that willfulness, as an indication that
an infringer knew of a patent and of its infringement,
does not serve as actual notice as contemplated by
§ 287. While willfulness turns on the knowledge of an
infringer, § 287 is directed to the conduct of the
patentee. The marking statute imposes notice
obligations on the patentee, and only the patentee is
capable of discharging those obligations. It is not
directed to the infringer and does not contemplate
mere knowledge of the infringer as sufficient to
discharge the notice requirements placed on the
patentee.
Arctic Cat bases its argument for reversing
Amsted on a supposed typographical error in that
opinion in a quotation from the Supreme Court’s
decision in Dunlap v. Schofield, 152 U.S. 244 (1894).
Where the Supreme Court stated that notice “is an
affirmative fact,” id. at 248, our opinion in Amsted
quoted Dunlap as characterizing notice as “an
affirmative act,” 24 F.3d at 187. Arctic Cat argues that
this discrepancy undermines the reasoning in Amsted
and that, properly understood, Dunlap stands for the
proposition that notice is a fact that can be proved by
knowledge of the infringer. But the alleged
mistranscription in Amsted is inconsequential to our
analysis of Dunlap because the relevant fact is the act
of the patentee. The full context of Dunlap confirms
this understanding:
The clear meaning of this section is that the
patentee or his assignee, if he makes or sells

App-12
the article patented, cannot recover damages
against infringers of the patent, unless he has
given notice of his right, either to the whole
public, by marking his article ‘Patented,’ or to
the particular defendants, by informing them
of his patent, and of their infringement of it.
One of these things—marking the articles,
or notice to the infringers—is made by the
statute a prerequisite to the patentee’s right
to recover damages against them. Each is an
affirmative fact, and is something to be done
by him.
152 U.S. at 248. Thus, the fact is the act of marking or
providing notice, and both are “something to be done
by” the patentee. Knowledge by the infringer is not
enough. Actual notice under § 287 requires
performance by the patentee.
Finally, we note that other decisions of this court
predating Amsted similarly interpreted actual notice
under § 287 to require action by the patentee. See Am.
Med. Sys., 6 F.3d at 1537 n.18 (Fed. Cir. 1993) (“The
notice of infringement must therefore come from the
patentee, not the infringer.”); Devices for Med., Inc. v.
Boehl, 822 F.2d 1062, 1066 (Fed. Cir. 1987) (“[The
patentee] failed to carry its burden of convincing the
jury that it had performed affirmative acts in
compliance with § 287.”).

App-13
CONCLUSION
We have considered Arctic Cat’s remaining
arguments but find them unpersuasive. Accordingly,
for the reasons above, we affirm the district court’s
denial of pre-complaint damages to Arctic Cat.
AFFIRMED

App-14
Appendix B
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA
________________
No. 14-CV-62369
________________
ARCTIC CAT INC.,
v.

Plaintiff,

BOMBARDIER RECREATIONAL PRODUCTS INC.,
BRP U.S. INC.,
Defendants.
________________
Filed: Aug. 10, 2018
________________
ORDER ON CROSS-MOTIONS FOR
SUMMARY JUDGMENT
________________
THIS CAUSE is before the Court upon
Defendants Bombardier Recreational Products, Inc.
and BRP U.S. Inc.’s (together, “BRP”) Motion for
Summary Judgment and Memorandum of Law, ECF
No. [307] (“BRP’s Motion”), filed on June 1, 2018 and
Plaintiff Arctic Cat, Inc.’s (“Arctic Cat”) Sealed Motion
for Summary Judgment, ECF No. [310] (“Arctic Cat’s
Motion”), also filed on June 1, 2018. The Court has
reviewed the Motions, the materials filed in support
and opposition, record, and the case law, and is
otherwise fully advised.

App-15
I.

The Federal Circuit Mandate

The Court writes for the parties and assumes
familiarity with the procedural and factual
background of this patent infringement case. On
March 19, 2018, the Federal Circuit issued its
mandate in the appeal of this matter following a jury
trial. ECF No. [274]; see also Arctic Cat Inc. v.
Bombardier Recreational Prod. Inc., 876 F.3d 1350
(Fed. Cir. 2017). In its opinion, the Federal Circuit
affirmed this Court’s denial of judgment as a matter
of law that the patent claims asserted by Arctic Cat
would have been obvious, that the jury-awarded
royalty rate should be vacated, and that BRP did not
willfully infringe the asserted claims. Arctic Cat, 876
F.3d at 1372. The Federal Circuit further affirmed this
Court’s orders granting an ongoing royalty and
trebling damages. Id. at 1372. However, the Federal
Circuit vacated that portion of the Court’s order
denying judgment as a matter of law as to marking
under 35 U.S.C. § 287 and remanded for a new trial,
finding that this Court erred when it failed to hold
that “[t]he burden of proving compliance with marking
is and at all times remains on the patentee.” Id. at
1367, 1372.
In reviewing the issue of marking, the Federal
Circuit held that “an alleged infringer who challenges
the patentee’s compliance with § 287 bears an initial
burden of production to articulate the products it
believes are unmarked ‘patented articles’ subject to
§ 287.” Id. at 1368. The Federal Circuit found that
BRP had satisfied the “low bar” of the burden of
production by producing evidence of the licensing
agreement between Honda and Arctic Cat showing

App-16
Honda’s license to practice “Arctic Cat patents that
patently cover Arctic Cat’s Controlled Thrust Steering
methods, systems and developments” and identifying
fourteen Honda personal watercrafts (“PWCs”) from
three versions of its Aquatrax series sold between
2002 and 2009 which allegedly practiced the patents
at issue. Id.
The Federal Circuit found, however, that once
BRP had satisfied this burden of production, the Court
should have required the patentee, here, Arctic Cat, to
prove compliance with § 287(a). “Arctic Cat, therefore,
did not have a fair opportunity to develop its case
regarding the Honda PWCs at trial.” Id. at 1369.
Accordingly, the Federal Circuit vacated this Court’s
judgment as to marking “so that Arctic Cat has an
opportunity to proffer evidence related to the
identified Honda PWCs.” Id. The Federal Circuit
remanded for new trial and left the issue of additional
discovery to the discretion of this Court. Id. at 1369,
1369 n.2.
After issuance of the mandate, the Court entered
an order requiring the parties to advise the Court
whether the parties believed any additional discovery
was necessary, and whether the parties planned to file
any pretrial motions. In addition, the Court required
the parties to submit concise statements of the issues
remaining for remand. See ECF No. [275]. The parties
thereafter complied, filing the Joint Scheduling
Report, ECF No. [290]; the Concise Statement of
Issues filed by Arctic Cat, ECF No. [291]; and the
Concise Statement of Issues filed by BRP, ECF No.
[293]. Meanwhile, Arctic Cat filed a Sealed Motion for
Entry of Modified Judgment and Execution of Partial

App-17
Judgment, ECF No. [284] (“Judgment Motion”). The
Court set a briefing schedule for the Judgment
Motion, ECF No. [286], and BRP filed an opposition to
the Judgment Motion on April 23, 2018, ECF No.
[292]. Arctic Cat replied on April 30, 2018. ECF No.
[295]. On May 11, 2018 BRP filed a Motion for
Protective Order Regarding Plaintiff’s Notice of
Deposition, ECF No. [298] (“Motion for Protective
Order”).
Four days later, the Court entered an order ruling
on all pending motions and setting a trial schedule
based on the parties’ representations in the Joint
Scheduling Report and the Concise Statements of
Issues. ECF No. [300] (“Omnibus Order”). In the
Omnibus Order, the Court noted that the Federal
Circuit found that “the only dispute between the
parties is whether any of the Honda PWCs was
covered by the patent claims at issue.” Arctic Cat Inc.
v. Bombardier Recreational Prod. Inc., 876 F.3d 1350,
1367 (Fed. Cir. 2017). Because the Federal Circuit
found BRP had met its burden of production, the
burden to show compliance with the marking
requirements of Section 287 on remand lay with Arctic
Cat. The Court accordingly allowed limited discovery
and set a pretrial briefing schedule. The parties
engaged in discovery and on June 1, 2018 filed the
cross-motions now before the Court. Thereafter, on
June 18, 2018, Arctic Cat and BRP both moved in
limine, ECF Nos. [323] and [327], and filed a pretrial
stipulation, ECF No. [326]. The Court now addresses
the motions pending before it.

App-18
II. LEGAL STANDARD
The standard of review for cross-motions for
summary judgment does not differ from the standard
applied when only one party files a motion. See Am.
Bankers Ins. Grp. v. United States, 408 F.3d 1328,
1331 (11th Cir. 2005). Under Federal Rule of Civil
Procedure 56, summary judgment is appropriate “if
the pleadings, depositions, answers to interrogatories,
and admissions on file, together with the affidavits, if
any, show that there is no genuine issue as to any
material fact and that the moving party is entitled to
a judgment as a matter of law.” Celotex Corp. v.
Catrett, 477 U.S. 317, 322 (1986); see also Fed. R. Civ.
Pro. 56(a). The parties may support their positions by
citation to the record, including, inter alia,
depositions, documents, affidavits, or declarations.
See Fed. R. Civ. P. 56(c). An issue is genuine if “a
reasonable trier of fact could return judgment for the
non-moving party.” Miccosukee Tribe of Indians v.
United States, 516 F.3d 1235, 1243 (11th Cir. 2008)
(quoting Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
247-48 (1986)). A fact is material if it “might affect the
outcome of the suit under the governing law.” Id.
(quoting Anderson, 477 U.S. at 247-48).
The moving party shoulders the initial burden to
demonstrate the absence of a genuine issue of material
fact. See Shiver v. Chertoff, 549 F.3d 1342, 1343 (11th
Cir. 2008). Once the moving party has met its burden,
the non-movant must “go beyond the pleadings” and
show that there is a genuine issue for trial. Celotex,
477 U.S. at 324; see also Fed. R. Civ. Pro. 56(c)(1). To
avoid summary judgment, the non-moving party
“must do more than simply show that there is some

App-19
metaphysical doubt as to the material facts.”
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 586 (1986) (emphasis added). A movant must
present evidence demonstrating that it can establish
the basic elements of his claim. Celotex, 477 U.S. at
322. After the nonmoving party has responded to the
motion for summary judgment, a court must grant
summary judgment if there is no genuine issue of
material fact and the moving party is entitled to
judgment as a matter of law. Thus, “[a] ‘judge’s
function’ at summary judgment is not ‘to weigh the
evidence and determine the truth of the matter but to
determine whether there is a genuine issue for trial.’”
Tolan v. Cotton, 134 S.Ct. 1861, 1866 (2014) (per
curiam) (quoting Anderson, 477 U.S. at 249)
(emphasis added).
As before the Court here, “cross motions for
summary judgment may be probative of the
nonexistence of a factual dispute, but this procedural
posture does not automatically empower the court to
dispense with the determination whether questions of
material fact exist.” Georgia State Conference of
NAACP v. Fayette Cty. Bd. of Comm’rs, 775 F.3d 1336,
1345-46 (11th Cir. 2015). In particular, where “the
parties respond[ ] to each respective summary
judgment motion with disputes as to the ‘undisputed’
facts, add[ ] ‘material facts’ of their own, and then
repl[y] with subsequent objections to the other party’s
additional facts,” the mere filing of cross motions for
summary judgment is not conclusive. Id. Thus, where
the parties disagree as to the facts, summary
judgment cannot be entered unless one of the parties
meets its burden of demonstrating that “there is no
dispute as to any material facts with the evidence and

App-20
all inferences drawn therefrom viewed in the light
most favorable” to the other party. Shook v. United
States, 713 F.2d 662, 665 (11th Cir. 1983).
III. THE MOTIONS
A. BRP’s Motion for Summary Judgment
BRP moves for summary judgment to preclude
Arctic Cat from seeking any damages prior to the
filing of this action on October 16, 2014 based on Arctic
Cat’s failure to mark the products at issue and failure
to provide actual notice pursuant 35 U.S.C. § 287. As
to marking, BRP states that, after limited discovery
on remand, Arctic Cat has conceded that it cannot
demonstrate that the unmarked Honda products
identified by BRP do not practice the ‘545 and ‘969
patents. Thus, BRP argues that based on this alone it
is entitled to summary judgment on the issue of failure
to mark. ECF No. [307] at 5.
Second, BRP argues that based on stipulations
entered into by the parties before trial, there is no
genuine issue of material fact regarding both
constructive and actual notice. Id. at 3. Specifically,
BRP states that the parties entered into the following
stipulations before trial:
(1) “On or about February 15, 2002, Arctic Cat
and Honda entered into a license agreement
that included . . . both the ‘545 Patent and the
‘969 Patent”;
(2) Arctic Cat “agreed to a license that did not
include a marking requirement”;
(3) Honda sold fourteen models of Aquatrax
PWCs in the United States;

App-21
(4) Arctic Cat “did not make any effort to
ensure Honda marked the PWCs that it sold
with the patent number of the ‘545 Patent,
‘969 Patent, or any related patents.”
(5) Arctic Cat “first gave BRP actual notice of
infringement of the ‘545 Patent and the ‘969
Patent on October 16, 2014, when it filed its
complaint in this lawsuit.”
Id. at 2; see also Statement of Material Facts, ECF
No. [308]. As to constructive notice, based on these
stipulations, BRP argues that Arctic Cat cannot show
that it meets the marking requirement of Section 287
because “Arctic Cat has not shown that the Honda
Aquatrax PWCs do not practice the claims of the ‘545
and ‘969 patents, and because those products were
licensed and unmarked.” Id. at 8. Regarding actual
notice, BRP argues that Arctic Cat has not met its
burden to show it provided actual notice of
infringement to BRP prior to October 16, 2014 when it
filed this lawsuit. Id. at 10. BRP argues that the jury’s
finding of willfulness has no effect on whether BRP
was actually on notice of infringement. Id.
In opposition, Arctic Cat makes two arguments
asserting that it should not be limited to damages as
a matter of law to those incurred after October 16,
2014. First, Arctic Cat urges that BRP’s Motion must
be denied as Arctic Cat is entitled to damages from the
date that Honda stopped selling the unmarked PWCs,
that is, September 6, 2013. ECF No. [317] at 5. Arctic
Cat argues that during the period between September
6, 2013 and October 16, 2014, Arctic Cat could not
have violated Section 287’s marking requirement
since Honda sold no unmarked products. Thus, Arctic

App-22
Cat is due damages during this period because there
was no marking violation. Id. at 7. Arctic Cat
additionally argues that it is entitled to all is pre-suit
damages dating back to October 2008 based on the
jury’s finding of willfulness. Id. at 8.
B. Arctic Cat’s
Judgment

Motion

for

Summary

Arctic Cat also moves for summary judgment
arguing that there are no genuine issues of material
fact regarding its entitlement to pre-suit damages on
two separate theories which mirror its theories in
opposition to BRP’s Motion. First, Arctic Cat argues
that even if it failed to comply with the marking
requirements of Section 287 and even if it did not give
actual notice of the infringement to BRP until October
16, 2014, Arctic Cat is due all its pre-suit damages
from October 2008 onward based on the jury’s finding
of willfulness. In making this argument, Arctic Cat
argues that the Federal Circuit’s decision in Amsted
Industries Inc. v. Buckeye Steel Casting Co., 24 F.3d
178 (Fed. Cir. 1994), which held that actual notice
under Section 287 requires an affirmative
communication or notification by the patentee, was
wrongly decided. Arctic Cat argues that this Court
should not follow this binding precedent and its
progeny. Id. at 13-14.
In the alternative, Arctic Cat argues that it is
entitled to is pre-suit damages from September 6, 2013
onward—the date on which Honda stopped selling the
unmarked PWCs—because after that date, there was
no longer any products to be marked and therefore no
need to comply with the marking requirements of
Section 287.

App-23
BRP opposes Arctic Cat’s Motion for Summary
Judgment. ECF No. [314]. First, it argues that the
Court should reject Arctic Cat’s “invitation to ignore
controlling law and Arctic Cat’s own binding
stipulation” in order to find that Arctic Cat is due all
its pre-suit damages from October 2008 onward. Id. at
5. Further, BRP argues that Arctic Cat cannot avoid
the marking requirements of Section 287 because
Honda ceased to sell the unmarked PWCs. Rather,
once the unmarked products are produced, BRP
argues that the only cure is actual notice, which the
parties stipulated occurred on October 16, 2014.
IV. THE
MATERIAL
UNCONTROVERTED
FACTS ON REMAND
While the parties have filed lengthy motions in
support of their cross motions for summary judgment,
their Statements of Material Facts are brief and
tailored to the narrow marking issue before the Court
on remand. The following facts are not in dispute
unless stated otherwise:
Arctic Cat developed an off-throttle steering
system for PWCs and secured seven patents for the
technology in 1999, including two at issue in this case,
the ‘545 and ‘969 patents. ECF No. [310] at 8-9; ECF
No. [326] at 6. On February 15, 2002, Arctic Cat
entered into a licensing agreement with Honda that
included the ‘545 and ‘969 patents. ECF Nos. [308]
¶¶ 1-2; [318] ¶¶ 1-2. The license agreement contained
no marking requirement, and Arctic Cat made no
effort to ensure that Honda marked the PWCs that it
sold. ECF Nos. [308] ¶ 4; [318] ¶ 4. Thereafter, Honda
sold at least fourteen models of PWCs in the U.S.
which practiced the ‘545 and ‘969 patents. ECF

App-24
Nos. [308] ¶¶ 2, 14; [318] ¶¶ 2, 14. These personal
watercrafts were unmarked. ECF No. [310] at 9. Arctic
Cat states that Honda stopped manufacturing in 2009
the unmarked personal watercraft which practiced the
patents and stopped selling them in 2013. ECF
No. [311] at 2. Arctic Cat further states that Honda
has no unsold inventory of these personal watercrafts.
Id. BRP disputes that Honda stopped manufacturing
the PWCs that practiced the patents at issue in 2009,
that Honda ceased selling those PWCs in 2013, and
that Honda has no unsold inventory of these PWCs.
Although Arctic Cat discussed licensing the
patents with BRP, the parties never entered into a
license agreement. Id. at 10. In the meantime, BRP
developed its own off-throttle steering system that,
after a jury trial, was found to have infringed on the
‘545 and ‘969 patents. While the record supports that
BRP consulted both internally and externally
regarding whether its system may have infringed on
the ‘545 and ‘969 patents, Arctic Cat did not
affirmatively communicate to BRP about the alleged
infringement until it filed this lawsuit on October 16,
2014. ECF Nos. [308] para 8-9; [318] 8-9; ECF No. [1].
V. ANALYSIS
A. The Marking Statute
A patentee can only recover damages in an
infringement suit for those acts of infringement that
occurred after the patentee gave the alleged infringer
“notice of infringement.” 35 U.S.C. § 287(a). 1
1

Section 287(a) provides in pertinent part as follows:
Patentees, and persons making, offering for sale, or
selling within the United States any patented article

App-25
“Patentees, and persons making, offering for sale, or
selling within the United States any patented article
for or under them, or importing any patented article
into the United States, may give notice to the public
that the same is patented” by “either by fixing thereon
the word “patent” or the abbreviation “pat.”, together
with the number of the patent . . . .” Id. While
permissive, marking under the statute serves three
related purposes. They are “1) helping to avoid
innocent infringement; 2) encouraging patentees to
give notice to the public that the article is patented;
and 3) aiding the public to identify whether an article
is patented.” Rembrandt Wireless Techs., LP v.
Samsung Elecs. Co., 853 F.3d 1370, 1383 (Fed. Cir.
2017) (quoting Nike, Inc. v. Wal-Mart Stores, Inc., 138
F.3d 1437, 1443 (Fed. Cir. 1998)). Thus, the marking
statute “protects the public’s ability to exploit an
unmarked product’s features without liability for
damages until a patentee provides either constructive
notice through marking or actual notice.” Id. (citing
Bonito Boats, Inc. v. Thunder Craft Boats, Inc., 489
U.S. 141, 162 (1989)).

for or under them, or importing any patented article
into the United States, may give notice to the public
that the same is patented, either by fixing thereon the
word “patent” or the abbreviation “pat”, together with
the number of the patent . . . . In the event of failure so
to mark, no damages shall be recovered by the
patentee in any action for infringement, except on
proof that the infringer was notified of the
infringement and continued to infringe thereafter, in
which event damages may be recovered only for
infringement occurring after such notice.

App-26
Marking is not mandatory. Rembrandt, 853 F.3d
at 1383. If the patentee—or its licensee—fails to mark,
the patentee’s damages are foreclosed unless the
patentee demonstrates that “the infringer was notified
of the infringement and continued to infringe
thereafter, in which event damages may be recovered
only for infringement occurring after such notice.
Filing of an action for infringement shall constitute
such notice.” 35 U.S.C. § 287(a); see also Am. Med.
Sys., Inc. v. Med. Eng’g Corp., 6 F.3d 1523, 1536 (Fed.
Cir. 1993) (footnote omitted) (citing Gen. Elec. Co. v.
Sciaky Bros., 304 F.2d 724, 726 (6th Cir. 1962) (“In
view of General Electric’s failure to mark its products
as required by statute, or to give any notice of
infringement, it could not, in any event, recover
damages for infringements occurring prior to the filing
of the action for infringement.” (citations omitted)));
see also Conopco, Inc. v. May Dep’t Stores Co., 46 F.3d
1556, 1563 (Fed. Cir. 1994) (noting “[s]ince Conopco
did not mark its product with the ‘179 patent number,
defendants are not liable for patent infringement
damages prior to the date they had actual notice of the
‘179 patent”).
Actual notice under Section 287(a) requires “an
affirmative act on the part of the patentee which both
identifies the patentee and informs the defendant of
infringement.” Amsted Indus. Inc. v. Buckeye Steel
Castings Co., 24 F.3d 178, 187 (Fed.Cir.1994); see also
Rosebud LMS Inc. v. Adobe Sys. Inc., 812 F.3d 1070,
1074 (Fed. Cir. 2016) (quoting Amsted, 24 F.3d at 187)
(contrasting the “proof that the infringer was notified”
language of Section 287(a) with the language of
Section 154(d) which requires only “actual notice”).
More than simply demonstrating the alleged infringer

App-27
had some notice, “Section 287(a) explicitly requires an
act of notification” by the patentee which contains
“sufficient specificity [to convey that] the patent
holder believes that the recipient of the notice may be
an infringer.” Rosebud, 812 F.3d at 107; SRI Int’l, Inc.
v. Advanced Tech. Labs., Inc., 127 F.3d 1462, 1470
(Fed. Cir. 1997). This requirement ensures “that the
accused infringer knew of the adverse patent and the
alleged infringement during the period in which its
liability accrues.” SRI, 127 F.3d at 1470. “The correct
approach to determining notice under Section 287
must focus on the action of the patentee, not the
knowledge of the infringer.” Amsted, 24 F.3d at 187
(emphasis added); see also Funai Elec. Co. v. Daewoo
Elecs. Corp., 616 F.3d 1357, 1373 (Fed. Cir. 2010);
Minks v. Polaris Indus., Inc., 546 F.3d 1364, 1376
(Fed. Cir. 2008); U.S. Philips Corp. v. Iwasaki Elec.
Co., 505 F.3d 1371, 1375 (Fed. Cir. 2007); Lans v.
Digital Equip. Corp., 252 F.3d 1320, 1327-28 (Fed. Cir.
2001); Gart v. Logitech, Inc., 254 F.3d at 1345. In fact,
to determine whether the patentee engaged in an
affirmative act to notify the alleged infringer sufficient
to satisfy Section 287, “it is irrelevant . . . whether the
defendant knew of . . . his own infringement.” Amsted,
24 F.3d at 187.
Compliance with the marking statute is a
question of fact. Maxwell v. J. Baker, Inc., 86 F.3d
1098, 1111 (Fed. Cir. 1996). Thus, where it is
uncontested that the identified products practicing the
patents at issue were unmarked, summary judgment
is only properly granted when no reasonable jury
could find that “the patentee either has or has not
provided actual notice to the ‘particular defendants by
informing them of his patent and of their infringement

App-28
of it.’” Gart, 254 F.3d at 1339 (quoting Amstead, 24
F.3d at 187). “The patentee bears the burden of
pleading and proving he complied with § 287(a)’s
marking requirement.” Arctic Cat Inc. v. Bombardier
Recreational Prod. Inc., 876 F.3d 1350, 1365-66 (Fed.
Cir. 2017) (citing Maxwell, 86 F.3d at 1111). Moreover,
“the duty of alleging and the burden of proving either
actual or constructive notice is upon the patentee.” Id.
(quoting Dunlap v. Schofield, 152 U.S. 244, 248 (1894)
(holding “if [the patented units] are not duly marked,
the statute expressly puts upon [the patentee] the
burden of proving notice to the infringers before he can
charge them in damages”).
B. Constructive Notice
Under this standard, Arctic Cat is entitled to
calculate its damages from when it constructively
notified BRP of the patents by marking its products or
when it engaged in an affirmative act to notify BRP of
the alleged infringement. As to constructive notice by
marking, the parties agree that Arctic Cat and Honda
entered into a license agreement that included the
‘545 and ‘969 patents, and that the license agreement
contained no marking requirement. The parties
further do not dispute that Arctic Cat made no effort
to ensure that Honda marked the PWCs it sold that
practiced ‘545 and ‘969 patents, and that Honda sold
at least fourteen models of unmarked PWCs. On
remand, Arctic Cat specifically concedes that it cannot
meet its burden to show that the unmarked Honda
PWCs identified by BRP do not practice the ‘545 and
‘969 patents. As a licensee, the Honda PWCs which
practice the patents at issue fall under the marking
statute, see, e.g., Amstead, 24 F.3d at 185; Maxwell, 86

App-29
F.3d 1111. Thus, taking the facts in the light most
favorable to the non-moving party, Arctic Cat cannot
demonstrate that the Honda products were marked in
accordance with Section 287(a).
C. Actual Notice
Since Arctic Cat failed to mark the PWCs
identified by BRP, Arctic Cat can only recover
damages commencing when it provided actual notice
to BRP regarding infringement. The parties agree that
Arctic Cat first informed BRP of the infringement on
October 16, 2014 by filing this lawsuit. The parties
further agree that Arctic Cat never provided any
affirmative communication or notification to inform
BRP of the infringement prior to filing this action. In
its statement of material facts, BRP states:
8. Arctic Cat has identified no specific charge
of infringement communicated to BRP by any
specific accused product or device prior to
filing this lawsuit.
9. Arctic Cat has produced no affirmative
communication of a specific charge of
infringement by a specific accused product or
device dated prior to the filing of this lawsuit.
In response, Arctic Cat disagrees with these
statements of material fact and clarifies by providing
its own material facts:
Arctic Cat has not identified an affirmative
communication from Arctic Cat to BRP
communicating a specific charge of
infringement by a specific accused product or
device dated before this suit was filed. But
that does not mean that BRP did not have

App-30
actual notice that its personal watercraft
infringed before this suit was filed.
Arctic Cat’s material facts end the inquiry. Actual
notice under Section 287(a) requires the patentee to
provide an “affirmative communication of a specific
charge of infringement by a specific accused product
or device.” Amsted Indus. Inc. v. Buckeye Steel
Castings Co., 24 F.3d 178, 187 (Fed. Cir. 1994). Arctic
Cat readily admits that prior to filing this suit, it
never provided any affirmative “act of notification” to
BRP. Rosebud, 812 F.3d at 107. Because the parties
agree that the first time Arctic Cat provided any
affirmative notice to BRP was October 16, 2014 when
Arctic Cat filed this lawsuit, Arctic Cat has failed to
meet is burden to show actual notice at any time prior
to October 16, 2014. Accordingly, Arctic Cat is
statutorily precluded from recovering damages for
infringement prior to that date.
Arctic Cat argues in its Motion and in opposition
to BRP’s Motion that its meets it burden to show
actual notice under Section 287 based on both the
Court’s rulings and the jury’s findings of willful
infringement. ECF No. [318] at 2-3. Arctic Cat further
points to evidence introduced at trial that BRP knew
about the ‘545 and ‘969 patents and was aware
internally about potential infringement. But the
reading of the statute that Arctic Cat urges conflates
the patentee-centered inquiry of notice under Section
287(a) with the infringer-centered inquiry of
willfulness with regard to liability. Moreover, such a
reading runs contrary to binding precedent from the

App-31
Federal Circuit. 2 The actual notice inquiry under
Section 287(a) requires the Court to examine the
conduct of the patentee, regardless of the knowledge or
understanding of the infringer. Amstead, 24 F.3d at
187. The jury’s finding of willfulness does not relieve
Arctic Cat of its obligation to mark or notify—neither
of which Arctic Cat did prior to October 16, 2014.
While Arctic Cat may disagree with the Federal
Circuit’s holding in Amstead, that case and its progeny
are binding on this Court. Accordingly, the Court
declines Arctic Cat’s invitation to disregard binding
precedent and to rely on evidence of willfulness to
circumvent its affirmative notice requirement under
Section 287(a).
Arctic Cat argues in the alternative that it is
entitled to pre-suit damages beginning on September
6, 2013. Arctic Cat states that from September 6, 2013
to October 16, 2014 it complied with the marking
requirement of Section 287(a) because Honda sold no
products—marked or unmarked—during that time.
However, the binding authority Arctic Cat cites in
support of this argument falls into two factually
distinct categories: instances where no patented
products were produced or sold at all, see, e.g., Texas
Digital Sys., Inc. v. Telegenix, Inc., 308 F.3d 1193 (Fed.
Cir. 2002), or instances where, after initially failing to
mark patented articles, the patentee either began
affirmatively marking them or provided affirmative
actual notice to the alleged infringer, see, e.g., Am.
Med. Sys., Inc. v. Med. Eng’g Corp., 6 F.3d 1523, 1537
2 Arctic Cat admits as much and argues that this Court should
not follow binding precedent. See generally, ECF No. [310] at 7,
15-20.

App-32
(Fed. Cir. 1993). Moreover, Arctic Cat cites to no
factually similar binding case law in support of this
interpretation of Section 287(a).
The Court rejects the extension of Section 287(a)
that Arctic Cat urges. Such a holding would run
contrary to the statute’s purpose to prevent innocent
infringement, encourage patentees to give notice to
the public that the article in question is patented, and
aid the public in identifying whether an article is
patented. Rembrandt Wireless Techs., LP v. Samsung
Elecs. Co., 853 F.3d 1370, 1383 (Fed. Cir. 2017)
(quoting Nike, Inc. v. Wal-Mart Stores, Inc., 138 F.3d
1437, 1443 (Fed. Cir. 1998)). Rather, in order for Arctic
Cat to cure its non-compliance with the marking
statute, it needed to begin marking the products or
provide actual affirmative notice to an alleged
infringer. Am. Med. Sys, 6 F.3d at 1537. However, on
remand, Arctic Cat concedes that it did no such thing.
Thus, taking the facts in the light most favorable to
the non-moving party, BRP is entitled to summary
judgment. Arctic Cat is precluded from seeking
damages prior to October 16, 2014.
VI. CONCLUSION
Based on the foregoing, it is ORDERED AND
ADJUDGED as follows:
1. Defendants’ Motion for Summary Judgment
and Memorandum of Law, ECF No. [307], is
GRANTED.
2. Plaintiff’s Sealed Motion for
Judgment, ECF No. [310], is DENIED.

Summary

3. The parties shall confer and jointly file a
proposed modified judgment consistent with this

App-33
Order by August 24, 2018. Should the parties be
unable to agree, Arctic Cat shall file its proposed
modified judgment by August 27, 2018. BRP may
thereafter file its proposed modified judgment by
August 31, 2018.
4. To the extent not otherwise disposed of, all
pending motions are denied as MOOT and all
deadlines are TERMINATED;
5.
The
Clerk
of
Court
ADMINISTRATIVELY CLOSE this case.

shall

DONE AND ORDERED in Chambers at Miami,
Florida, this 10th day of August, 2018.
[handwritten: signature]
BETH BLOOM
UNITED STATES
DISTRICT JUDGE

App-34
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________
No. 17-1475
________________
ARCTIC CAT INC.,
v.

Plaintiff-Appellee,

BOMBARDIER RECREATIONAL PRODUCTS INC.,
BRP U.S. INC.,
Defendants-Appellants.
________________
Filed: Dec. 7, 2017
________________
Before: MOORE, PLAGER, and STOLL,
Circuit Judges.
________________
OPINION
________________
MOORE, Circuit Judge.
Bombardier Recreational Products Inc. and BRP
U.S. Inc. (collectively, “BRP”) appeal from the United
States District Court for the Southern District of
Florida’s denial of judgment as a matter of law that
the asserted claims of U.S. Patent Nos. 6,568,969
(“‘969 patent”) and 6,793,545 (“‘545 patent”) would
have been obvious, that Arctic Cat Inc. (“Arctic Cat”)
failed to mark patented products, that the jury’s

App-35
royalty award was based on improper expert
testimony, and that BRP did not willfully infringe the
asserted claims. BRP also appeals the district court’s
decision to treble damages and its award of an ongoing
royalty to Arctic Cat. We affirm the district court’s
denial of judgment as a matter of law as to
obviousness, the jury’s royalty rate, and willfulness.
We affirm the district court’s decision to treble
damages and award an ongoing royalty to Arctic Cat.
We vacate the court’s denial of judgment as a matter
of law as to marking and remand for further
consideration limited to that issue.
BACKGROUND
The ‘969 and ‘545 patents disclose a thrust
steering system for personal watercraft (“PWC”)
propelled by jet stream. This type of watercraft is
propelled by discharging water out of a discharge
nozzle at the rear of the watercraft. E.g., ‘545 patent
at 1:22-24. The rider controls the thrust of water out
of the discharge nozzle by pressing a lever mounted on
the steering handle. Id. at 1:38-40. A sufficient
amount of thrust out of the steering nozzle is required
for these watercraft to steer properly because
decreasing the thrust of the water out of the discharge
nozzle decreases the steering capability of the
watercraft. Id. at 1:34-36, 1:51-55.
Because steering capabilities are affected by the
amount of thrust applied, the patents explain that, to
avoid obstacles at high speed, riders should apply
constant pressure on the throttle lever while
simultaneously turning the steering handle away
from the obstacle. Id. at 1:59-61. This is counterintuitive to inexperienced riders who often slow down

App-36
to turn out of the way. Id. at 1:55-65. In these
situations a rider may not be able to avoid the obstacle
because steering capability has been decreased. Id. at
1:65-67. The patents seek to overcome this issue by
automatically providing thrust when riders turn the
steering system. Id. at 2:11-27. Claim 15 of the ’545
patent is representative:
A watercraft including:
a steering mechanism;
a steering nozzle;
a thrust mechanism;
a lever adapted to allow an operator to
manually control thrust of said thrust
mechanism, said lever mounted on said
steering mechanism and biased toward
an idle position; and
a controlled thrust steering system for
controlling thrust of said thrust
mechanism
independently
of
the
operator;
wherein said controlled thrust steering
system activates said thrust mechanism
to provide a steerable thrust after said
lever is positioned other than to provide a
steerable thrust and after the steering
mechanism is positioned for turning said
watercraft.
Arctic Cat sued BRP for infringement of claims
13, 15, 17, 19, 25, and 30 of the ‘545 patent and claims
15-17, and 19 of the ‘969 patent, accusing the offthrottle thrust reapplication system in several of
BRP’s Sea-Doo PWC. BRP refers to its proprietary off-

App-37
throttle thrust reapplication system as Off-Throttle
Assisted Steering (“OTAS”). Before trial, BRP
unsuccessfully moved for summary judgment on
several issues, including that Arctic Cat’s sole licensee
Honda failed to mark its products with the licensed
patent numbers.
At trial, the jury found both patents not invalid,
awarded a royalty consistent with Arctic Cat’s model
($102.54 per unit) to begin on October 16, 2008, and
found by clear and convincing evidence that BRP
willfully infringed the asserted claims. Based on the
willfulness verdict, the district court trebled damages,
a decision it further explained in a subsequent order.
After post-trial briefing, the district court denied
BRP’s renewed motion for judgment as a matter of law
on all issues. It granted Arctic Cat’s motion for an
ongoing royalty, awarding $205.08 per unit. BRP
appeals the district court’s denial of judgment as a
matter of law on validity, marking, damages, and
willfulness, as well as its grant of an ongoing royalty
and decision to treble damages. We have jurisdiction
under 28 U.S.C. § 1295(a)(1).
DISCUSSION
In appeals of patent cases, we apply the law of the
regional circuit “to which district court appeals
normally lie, unless the issue pertains to or is unique
to patent law.” AbbVie Deutschland GmbH & Co., KG
v. Janssen Biotech, Inc., 759 F.3d 1285, 1295 (Fed. Cir.
2014) (internal quotation marks omitted). We review
rulings on motions for judgment as a matter of law
under the law of the regional circuit. Id. The Eleventh
Circuit reviews the denial of judgment as a matter of
law de novo, viewing the evidence in the light most

App-38
favorable to the non-moving party. Howard v.
Walgreen Co., 605 F.3d 1239, 1242 (11th Cir. 2010).
“The motion should be granted only when the plaintiff
presents no legally sufficient evidentiary basis for a
reasonable jury to find for him on a material element
of his cause of action.” Id. (internal quotation marks
omitted).
I.

Obviousness

Obviousness is a question of law based on
underlying facts. WBIP, LLC v. Kohler Co., 829 F.3d
1317, 1326 (Fed. Cir. 2016). In KSR International Co.
v. Teleflex Inc., 550 U.S. 398, 419 (2007), the Supreme
Court cautioned that the obviousness analysis should
not be reduced to “rigid and mandatory formulas.” In
Graham v. John Deere Co., the Supreme Court set the
framework for the obviousness inquiry under 35
U.S.C. § 103:
Under § 103, the scope and content of the
prior art are to be determined; differences
between the prior art and the claims at issue
are to be ascertained; and the level of
ordinary skill in the pertinent art resolved.
Against this background, the obviousness or
nonobviousness of the subject matter is
determined. Such secondary considerations
as commercial success, long felt but unsolved
needs, failure of others, etc., might be utilized
to give light to the circumstances surrounding
the origin of the subject matter sought to be
patented.
383 U.S. 1, 17-18 (1966). The Graham factors—(1) the
scope and content of the prior art; (2) the differences
between the claims and the prior art; (3) the level of

App-39
ordinary skill in the art; and (4) objective
considerations of nonobviousness—are questions of
fact reviewed for substantial evidence. See Apple Inc.
v. Samsung Elecs. Co., 839 F.3d 1034, 1047-48 (Fed.
Cir. 2016) (en banc); In re Cyclobenzaprine
Hydrochloride Extended-Release Capsule Patent
Litig., 676 F.3d 1063, 1068 (Fed. Cir. 2012). “When
reviewing a denial of judgment as a matter of law of
obviousness, where there is a black box jury verdict,
as is the case here, we presume the jury resolved
underlying factual disputes in favor of the verdict
winner and leave those presumed findings
undisturbed if supported by substantial evidence.”
WBIP, 829 F.3d at 1326. We examine the legal
conclusion de novo in light of those facts. Id.
“A determination of whether a patent claim is
invalid as obvious under § 103 requires consideration
of all four Graham factors, and it is error to reach a
conclusion of obviousness until all of those factors are
considered.” Apple, 839 F.3d at 1048. This includes
objective indicia of nonobviousness, which must be
considered in every case where present. See, e.g., id. at
1048 & n.13; Millennium Pharm., Inc. v. Sandoz Inc.,
862 F.3d 1356, 1368-69 (Fed. Cir. 2017); Merck & Cie
v. Gnosis S.p.A., 808 F.3d 829, 837 (Fed. Cir. 2015);
Bristol-Myers Squibb Co. v. Teva Pharm. USA, Inc.,
752 F.3d 967, 977 (Fed. Cir. 2014); Transocean
Offshore Deepwater Drilling, Inc. v. Maersk Drilling
USA, Inc., 699 F.3d 1340, 1349 (Fed. Cir. 2012). “This
requirement is in recognition of the fact that each of
the Graham factors helps inform the ultimate
obviousness determination.” Apple, 839 F.3d at 1048.
Objective indicia of nonobviousness are considered
collectively with the other Graham factors because

App-40
they “serve to ‘guard against slipping into use of
hindsight,’ and to resist the temptation to read into
the prior art the teachings of the invention in issue.”
Graham, 383 U.S. at 36 (citation omitted); see also
KSR, 550 U.S. at 415 (inviting court “to look at any
secondary
considerations
that
would
prove
instructive”); Stratoflex, Inc. v. Aeroquip Corp., 713
F.2d 1530, 1538-39 (Fed. Cir. 1983) (noting that
evidence of these factors must be considered with all
the evidence and “not just when the decisionmaker
remains in doubt after reviewing the art”).
Also a fact question is whether one of ordinary
skill in the art had a motivation to combine the prior
art to achieve the claimed combination. Apple, 839
F.3d at 1047-48, 1051; Wyers v. Master Lock Co., 616
F.3d 1231, 1237-39 (Fed. Cir. 2010). “In KSR, the
Supreme Court criticized a rigid approach to
determining obviousness based on the disclosures of
individual prior-art references, with little recourse to
the knowledge, creativity, and common sense that an
ordinarily skilled artisan would have brought to bear
when considering combinations or modifications.”
Randall Mfg. v. Rea, 733 F.3d 1355, 1362 (Fed. Cir.
2013). Therefore, a motivation to combine can be found
explicitly or implicitly in the prior art references
themselves, in market forces, in design incentives, or
in “any need or problem known in the field of endeavor
at the time of invention and addressed by the patent.”
KSR, 550 U.S. at 420-21; accord Plantronics, Inc. v.
Aliph, Inc., 724 F.3d 1343, 1354 (Fed. Cir. 2013)
(“[M]otivation to combine may be found explicitly or
implicitly in market forces; design incentives; the
‘interrelated teachings of multiple patents’; ‘any need
or problem known in the field of endeavor at the time

App-41
of invention and addressed by the patent’; and the
background knowledge, creativity, and common sense
of the person of ordinary skill.” (quoting Perfect Web
Techs., Inc. v. InfoUSA, Inc., 587 F.3d 1324, 1328-29
(Fed. Cir. 2009))). “The court should consider a range
of real-world facts to determine ‘whether there was an
apparent reason to combine the known elements in the
fashion claimed by the patent at issue.’”
Intercontinental Great Brands LLC v. Kellogg N. Am.
Co., 869 F.3d 1336, 1344 (Fed. Cir. 2017) (quoting
KSR, 550 U.S. at 418). Motivation to combine is a
factual determination as to whether there is a known
reason a skilled artisan would have been motivated to
combine elements to arrive at a claimed combination.
This is not the ultimate legal determination of
whether the claimed combination would have been
obvious to the ordinary artisan—meaning that it is
possible that a reason or motivation may exist, but
nonetheless the ordinary artisan would not have
found the combination obvious.
When a challenger shows that a “motivation”
existed for a relevant skilled artisan to
combine prior art in the way claimed in the
patent at issue, such a showing commonly
supports and leads readily to the further,
ultimate determination that such an artisan,
using ordinary creativity, would actually
have found the claimed invention obvious.
But the latter conclusion does not follow
automatically from the former finding, and
additional evidence may prevent drawing
it. . . . Even with a motivation proved, the
record may reveal reasons that, after all, the

App-42
court should not conclude that the
combination would have been obvious. . . .
Intercontinental Great Brands, 869 F.3d at 1346-47.
Determining whether a claimed combination
would have been obvious to a skilled artisan requires
consideration of all the facts, no one of which is
dispositive. The prior art, skill, and knowledge of the
ordinarily skilled artisan may present a motivation or
reason to combine. The prior art, skill, and knowledge
of an ordinary artisan may also provide reasons not to
combine which would likewise be a question of fact.
For example, a reference may be found to teach away
from a claimed combination, also a question of fact.
Allergan, Inc. v. Sandoz Inc., 796 F.3d 1293, 1305
(Fed. Cir. 2015). Prior art teaches away when “a
person of ordinary skill, upon reading the reference,
would be discouraged from following the path set out
in the reference, or would be led in a direction
divergent from the path that was taken by the
applicant.” Id. (citing In re Gurley, 27 F.3d 551, 553
(Fed. Cir. 1994)). In fact, the prior art could contain
one reference suggesting a combination and others
critiquing or otherwise discouraging the same. Even a
single reference can include both types of statements,
and we have held that it is error to fail to consider the
entirety of the art. See, e.g., W.L. Gore & Assocs., Inc.
v. Garlock, Inc., 721 F.2d 1540, 1550 (Fed. Cir. 1983)
(holding the district court erred by “considering the
references in less than their entireties, i.e., in
disregarding disclosures in the references that diverge
from and teach away from the invention at hand”).
“The degree of teaching away will of course
depend on the particular facts; in general, a reference

App-43
will teach away if it suggests that the line of
development flowing from the reference’s disclosure is
unlikely to be productive of the result sought by the
applicant.” Gurley, 27 F.3d at 553. As our precedent
reflects, prior art need not explicitly “teach away” to
be relevant to the obviousness determination. Implicit
in our discussion of the “degree” of teaching away is an
understanding that some references may discourage
more than others. Id.; see also Meiresonne v. Google,
Inc., 849 F.3d 1379, 1382 (Fed. Cir. 2017) (“A reference
that ‘merely expresses a general preference for an
alternative invention but does not criticize, discredit,
or otherwise discourage investigation into’ the claimed
invention does not teach away.” (quoting Galderma
Labs., L.P. v. Tolmar, Inc., 737 F.3d 731, 738 (Fed. Cir.
2013))); DePuy Spine, Inc. v. Medtronic Sofamor
Danek, Inc., 567 F.3d 1314, 1327 (Fed. Cir. 2009)
(affirming district court’s finding of teaching away
where the reference “expresse[d] concern for failure”);
ATD Corp. v. Lydall, Inc., 159 F.3d 534, 546 (Fed. Cir.
1998) (reversing a judgment of invalidity in part
because references “cautioned against compressing
the layers in a multilayer insulator”). Indeed, the
Supreme Court has long held that “known
disadvantages in old devices which would naturally
discourage the search for new inventions may be taken
into account in determining obviousness.” United
States v. Adams, 383 U.S. 39, 52 (1966) (emphasis
added).
Such understandings about reasons to combine or
countervailing reasons not to combine could come from
the knowledge, skill, and creativity of the ordinarily
skilled artisan. KSR, 550 U.S. at 418. We have held
that where a party argues a skilled artisan would have

App-44
been motivated to combine references, it must show
the artisan “would have had a reasonable expectation
of success from doing so.” Cyclobenzaprine, 676 F.3d
at 1068-69. Thus, if an ordinarily skilled artisan would
not believe that a particular combination would have
a reasonable expectation of “anticipated success,” the
combination may not be obvious. See KSR, 550 U.S. at
421. Whether a reasonable expectation of success
exists is yet another fact question. PAR Pharm., Inc.
v. TWI Pharm., Inc., 773 F.3d 1186, 1196 (Fed. Cir.
2014). Thus, whether there exist reasons a skilled
artisan would combine or reasons a skilled artisan
would not combine are entirely factual determinations
to which deference must be given. Once all relevant
facts are found, the ultimate legal determination
involves the weighing of the fact findings to conclude
whether the claimed combination would have been
obvious to an ordinary artisan.
The jury, in this case, determined that BRP failed
to prove by clear and convincing evidence that the
claims at issue would have been obvious to a skilled
artisan. BRP moved for judgment as a matter of law
on obviousness, which the district court denied. On
appeal, BRP argues that the district court erred in
refusing to grant it judgment as a matter of law that
the asserted claims would have been obvious in light
of the off-throttle thrust reapplication system in its
1997 Sea-Doo Challenger 1800 Jet Boat (“Challenger”)
and an existing PWC such as the 1998 Sea-Doo GTX
RFI (“GTX”). There is no serious dispute that the
Challenger system and a PWC like the GTX disclose

App-45
all elements of most of the asserted claims. 1 BRP
argues a reasonable jury could only have concluded an
ordinarily skilled artisan would have been motivated
to combine Challenger and a PWC, and that objective
indicia of nonobviousness confirm the asserted claims
would have been obvious. BRP disputes whether
substantial evidence exists for particular jury fact
findings and the ultimate legal determination of
obviousness.
BRP argues that “KSR compels a finding of
obviousness.” Appellant’s Br. 21. It argues that a
conclusion of obviousness must be reached because
there was “a design need or market pressure to solve
a problem” and the combination is one of “a finite
number of identified, predictable solutions.” Id. at 24
(quoting KSR, 550 U.S. at 421).
In order to show a skilled artisan would have been
motivated to modify a PWC with Challenger’s offthrottle thrust reapplication system, BRP principally
relies on two prior art reports written by the Society
of Automotive Engineers (“SAE”) that studied
“personal watercraft as test vehicles in order to
evaluate and test emerging off throttle steering
concepts and devices.” J.A. 7530. Specifically, the SAE
Interim and Draft Final Reports suggested using the
Challenger system in a PWC to address the offthrottle steering problem. The Draft Final Report
concluded if the Challenger system were applied to
1 BRP argues the only claims not disclosed in the ChallengerPWC combination are dependent claims 25 of the ‘545 patent and
17 of the ‘969 patent, but notes those claims are disclosed by
adding another patent to the Challenger-PWC combination.
Appellant’s Br. 23-24.

App-46
PWCs, “performance characteristics would remain
unchanged when operated properly, but when offthrottle steering and panic was sensed, then some
additional steering torque would automatically be
restored.” J.A. 7577. BRP also cites additional
references
that
it
argues
provided
PWC
manufacturers with overwhelming pressure to
implement solutions to off-throttle steering so that
riders could safely avoid obstacles. For example, the
National Transportation Safety Board recommended
PWC
manufacturers
“consider . . . off-throttle
steering” “to improve operator control and to help
prevent personal injuries.” J.A. 7944. The National
Association of State Boating Law Administrators
similarly pressured the PWC industry to address the
“disproportionate number of accidents” attributed to
“‘off-throttle’ steering loss” in PWCs. J.A. 9536. BRP
also argues its own patent application, Canadian
Patent Appl. 2,207,938 (“Rheault ‘938”), and patent,
U.S. Patent No. 6,336,833 (“Rheault ‘833”), disclose a
throttle reapplication system and suggest its use in a
PWC.
BRP argues a skilled artisan would have selected
the Challenger system because it was one of a finite
number of identified, predictable solutions to the
problem of off-throttle steering in PWCs. See KSR, 550
U.S. at 421. The SAE Interim and Draft Final Reports
identified the Challenger’s throttle reapplication as
one of four solutions to the problem of off-throttle
steering, along with rudders, flaps, and scoops. The
National Association of State Boating Law
Administrators also explained that jet boats and
PWCs are similar and off-throttle directional control
is a problem for both. Rheault ‘833 disclosed that its

App-47
steer-responsive throttle “is applicable to singleengine personal watercraft,” and Rheault ‘938 states
the Challenger jet boat’s thrust steering “is applicable
to all types of watercraft vehicles, including personal
watercraft vehicles.” J.A. 8942 at Abstract; J.A. 8920
at 8:15-17. For these reasons, BRP argues a
reasonable jury could only have found a skilled artisan
would have been motivated to modify a PWC with
Challenger’s off-throttle thrust reapplication system,
which would have combined known elements to
improve the system in the same way and yield
expected results.
We presume the jury found that an ordinarily
skilled artisan would not have been motivated to
combine the Challenger system with a PWC given its
determination that the asserted claims are not invalid
as obvious. If such a fact finding is supported by
substantial evidence, we may not reverse it. In
briefing and oral argument, BRP devoted much of its
argument to re-litigating its case and its evidence
rather than addressing the evidence that could have
supported the jury’s finding of no motivation to
combine. We do not reweigh the evidence and reach
our own factual determination regarding motivation.
The question for us on appeal is only whether
substantial evidence supports the jury’s presumed
finding. See, e.g., Apple, 839 F.3d at 1052 (“Our job is
not to review whether Samsung’s losing position was
also supported by substantial evidence or to weigh the
relative strength of Samsung’s evidence against
Apple’s evidence. We are limited to determining
whether there was substantial evidence for the jury’s
findings, on the entirety of the record.”). We conclude
that it does.

App-48
A reasonable jury could have found that a skilled
artisan would not have been motivated to combine
Challenger and a PWC. The SAE reports identified the
combination of the Challenger system with a PWC to
address the off-throttle steering problem, tested the
Challenger for that purpose, and noted potential
benefits of the combination. E.g., J.A. 7577. But the
reports did not stop there. The Draft Final Report also
stated that “additional new hazards can be envisioned
with such a steering system,” including collisions
“when inadvertent activation of restored thrust might
occur close to other boats, swimmers or fixed objects.”
Id. It explained that because these hazards do not
currently exist, “it is difficult to predict the frequency
with which such events may occur.” Id. Kevin Breen,
an author of the SAE reports and BRP’s expert at trial,
testified that automatic throttle reapplication without
“smart” engine controls could be dangerous. J.A. 236162. The Draft Final Report likewise identified
potential problems with proposed “smart” engine
controls, which “would only become activated when
needed and would not otherwise effect [sic] handling.”
J.A. 7577. The report noted some “obvious” problems
with this technology, such as the system performing in
a manner contrary to the operator’s intentions and the
need for the system to account for several variables “to
be beneficial.” Id. As to the thought process behind
“smart” engine controls, Mr. Breen testified that
throttle reapplication “would be useful only if they
were smart or on demand, as opposed to they just
happened.” J.A. 2231-32. The claimed invention, in
contrast, “just happen[s]” when the rider turns the
steering mechanism. Id.; see, e.g., ‘545 patent at claim
1.

App-49
This evidence may not rise to the level of teaching
away. Nonetheless, in light of this record, the jury’s
determination that there was no motivation to make
this particular combination is supported by
substantial evidence. Evidence suggesting reasons to
combine cannot be viewed in a vacuum apart from
evidence suggesting reasons not to combine. In this
case, the same reference suggests a reason to combine,
but also suggests reasons that a skilled artisan would
be discouraged from pursuing such a combination.
Under such circumstances, the jury’s fact finding
regarding motivation is supported by substantial
evidence. Coupled with testimony confirming the
potential problems of automatic throttle reapplication
and suggesting an alternative approach might reduce
those same problems, J.A. 2230-32, a jury could find a
skilled artisan would not have been motivated to
combine the Challenger system with a PWC to arrive
at the claimed combination.
BRP argues that the SAE reports demonstrate
market pressure to solve a problem and a finite
number of predictable solutions; in fact, BRP argues
there were only four articulated solutions. Appellant’s
Br. 9. In KSR, the Supreme Court explained when
there is “market pressure to solve a problem and there
are a finite number of identified, predictable solutions,
a person of ordinary skill has good reason to pursue
the known options within his or her technical grasp.”
550 U.S. at 421. While the SAE reports identified the
Challenger system, rudders, flaps, and scoops as
potential solutions to the problem of off-throttle
steering in PWCs, a reasonable jury could have
determined that more than four solutions existed. At
trial, Arctic Cat’s expert and named inventor Fred

App-50
Bernier testified there were “various fins” and “a
variety of things tried over a course of a number of
years,” including modifying where the appendages
attached to the PWC. J.A. 1219-21. BRP’s expert
Richard Simard also testified BRP built seventeen
prototypes incorporating various approaches over the
course of five years. J.A. 1951-57. An internal BRP
“brainstorming” session identified thirty-two possible
designs directed to off-throttle steering. J.A. 9454.
And there is evidence that other potential solutions to
the off-throttle steering problem existed but were not
fully disclosed for confidentiality and other concerns.
See, e.g., J.A. 7532 (noting that some ideas offered in
response to SAE’s inquiry “have typically either not
conveyed sufficient information or have patent,
propriety, or litigation concerns”).
A reasonable jury also could have found that
modifying a PWC with the Challenger system would
not have been a predictable solution yielding expected
results. Mr. Bernier testified “[i]t was quite a—quite a
surprise, actually” when his team realized the
technology worked on a prototype PWC. J.A. 1232. So
did Mr. Simard, who testified “[w]e were surprised”
that Proto-14, BRP’s prototype incorporating the
Challenger system with a PWC, was “pretty good in
forward speed.” J.A. 1960. He also admitted “what
works on a jet boat may not work on a personal
watercraft.” Id. And although Arctic Cat’s expert Dr.
Bernard Cuzzillo testified the Challenger system
reapplies some throttle when steering, he also
testified he did not know whether the Challenger
system was “adequate to qualify as a steerable thrust”
and that it would “not necessarily” comprise a
“controlled-thrust steering system.” J.A. 2876-78. This

App-51
testimony along with the SAE reports’ own cautions
about potential hazards of the combination provide
substantial evidence upon which a jury could conclude
that a skilled artisan would not have “anticipated
success” with the claimed combination.
A. Objective Considerations
At trial, Arctic Cat argued the claimed invention
received industry praise and satisfied a long-felt need.
We presume the jury found in favor of Arctic Cat as to
each of these objective considerations. We will not
reverse these presumed findings if supported by
substantial evidence.
1.

Industry Praise

“Evidence that the industry praised a claimed
invention or a product that embodies the patent claims
weighs against an assertion that the same claimed
invention would have been obvious.” Apple, 839 F.3d
at 1053; accord Institut Pasteur & Universite Pierre Et
Marie Curie v. Focarino, 738 F.3d 1337, 1347 (Fed.
Cir. 2013) (“[I]ndustry praise . . . provides probative
and cogent evidence that one of ordinary skill in the
art would not have reasonably expected [the claimed
invention].”).
At trial, Arctic Cat introduced a press release it
issued after Captain Michael Holmes, chief of the U.S.
Coast Guard Office of Boating Safety, rode and
evaluated an Arctic Cat prototype incorporating the
claimed invention. J.A. 9537. After his test ride,
Captain Holmes stated: “I like it. It’s one of the most
impressive innovations I’ve seen all year.” J.A. 9537.
He continued, “What I saw today will help us move
forward in developing a realistic, achievable standard
for a control and safety issue that we need to address.

App-52
I’m particularly encouraged that this amount of quickturn control can be achieved without some of the
negative handling or safety ramifications that seem to
accompany fins or rudders.” J.A. 9537. And Mr.
Bernier
testified
others
at
the
prototype
demonstration “were very impressed with the system
and how it worked” and said “it was the first time they
had seen something that had a viable chance of
resolving the off-throttle steering issues.” J.A. 1237.
BRP argues that substantial evidence does not
support the jury’s presumed factual finding that the
claimed invention received industry praise because
“praise from a Coast Guard official in Arctic Cat’s own
press release” is a “hearsay statement [that] cannot
overcome persuasive evidence that the claimed
technology described the same approach as BRP’s
system.” Appellant’s Br. 35-36 (citing J.A. 7828; J.A.
7871; In re Cree, Inc., 818 F.3d 694, 702 (Fed. Cir.
2016)). We disagree for at least two reasons. First,
Arctic Cat contends—and BRP does not contest—that
BRP failed to object to this evidence as hearsay at
trial, so the jury was entitled to credit the statement.
Appellee’s Br. 12. Second, that Captain Holmes’
statements appear in Arctic Cat’s press release goes to
evidentiary weight. Captain Holmes’ statements and
Mr. Bernier’s testimony constitute substantial
evidence to support the jury’s presumed factual
finding that the claimed invention received praise
from the industry. This evidence of industry
recognition of the significance and value of the claimed
invention weighs in favor of nonobviousness.

App-53
2.

Long-Felt Need

“Evidence of a long felt but unresolved need tends
to show non-obviousness because it is reasonable to
infer that the need would have not persisted had the
solution been obvious.” WBIP, 829 F.3d at 1332; see
also Iron Grip Barbell Co. v. USA Sports, Inc., 392
F.3d 1317, 1325 (Fed. Cir. 2004) (“Absent a showing of
long-felt need or the failure of others, the mere
passage of time without the claimed invention is not
evidence of nonobviousness.”).
BRP does not dispute there was a long-felt need
in the area of off-throttle steering and PWC rider
safety. Rather, it argues Arctic Cat’s invention did not
satisfy this long-felt need because the Challenger
system
already
solved
off-throttle
steering.
Substantial evidence supports the jury’s presumed
finding that the claimed invention solved the problem
of off-throttle steering. The SAE Draft Final Report
noted “an effort has been ongoing to develop this [offthrottle steering] technology for more than three
decades with little commercially viable success.” J.A.
7575. The report summarized test results of the
Challenger system for its off-throttle steering
capabilities and offered potential pros and cons of its
use in a PWC; it did not summarize test results of a
Challenger-PWC combination. And Mr. Breen
conceded at trial that despite a number of people
working to address the off-throttle steering problem,
there “was not a publicly available personal watercraft
with throttle reapplication” before Arctic Cat’s
invention. Appellee’s Br. 41 (citing J.A. 2337). This is
substantial evidence to support the jury’s fact finding

App-54
about long-felt need. This long-felt need weighs in
favor of the nonobviousness of the claimed invention.
B. Legal Conclusion
We consider whether the claimed invention would
have been obvious de novo, in light of the jury’s
underlying factual findings. WBIP, 829 F.3d at 1326.
The evidence suggesting a motivation to combine is
tempered by the evidence suggesting the ChallengerPWC combination could have serious problems, that
“smart” engine controls might better address those
problems, that the combination was not one of only
four possible solutions, and that the combination did
not yield expected results. We cannot under these
circumstances reverse any of the jury’s presumed fact
findings regarding motivation to combine or
expectations of success. In light of these fact findings
along with the objective indicia of nonobviousness,
which also weigh in favor of nonobviousness, we see no
error in the conclusion that BRP failed to prove that
the asserted claims would have been obvious by clear
and convincing evidence.
II. Marking
Pursuant to 35 U.S.C. § 287(a), a patentee who
makes or sells a patented article must mark his
articles or notify infringers of his patent in order to
recover damages. See Dunlap v. Schofield, 152 U.S.
244, 248 (1894). Section 287(a) provides:
Patentees, and persons making, offering for
sale, or selling within the United States any
patented article for or under them, or
importing any patented article into the
United States, may give notice to the public
that the same is patented, either by fixing

App-55
thereon the word “patent” or the abbreviation
“pat.”, together with the number of the
patent. . . . In the event of failure so to mark,
no damages shall be recovered by the
patentee in any action for infringement,
except on proof that the infringer was notified
of the infringement and continued to infringe
thereafter, in which event damages may be
recovered only for infringement occurring
after such notice.
The patentee bears the burden of pleading and
proving he complied with § 287(a)’s marking
requirement. Maxwell v. J. Baker, Inc., 86 F.3d 1098,
1111 (Fed. Cir. 1996); see also Dunlap, 152 U.S. at 248
(“[T]he duty of alleging and the burden of proving
either [actual or constructive notice] is upon the
[patentee].”). Whether a patentee’s articles have been
marked “is a matter peculiarly within his own
knowledge . . . .” Dunlap, 152 U.S. at 248. If a patentee
who makes, sells, offers for sale, or imports his
patented articles has not “given notice of his right” by
marking his articles pursuant to the marking statute,
he is not entitled to damages before the date of actual
notice. Id.; see also 35 U.S.C. § 287 (noting the
patentee’s “failure so to mark” limits his damages to
those incurred after actual notice). Section 287 is thus
a limitation on damages, and not an affirmative
defense. Motorola, Inc. v. United States, 729 F.2d 765,
770 (Fed. Cir. 1984). Compliance with § 287 is a
question of fact. Maxwell, 86 F.3d at 1111.
A patentee’s licensees must also comply with
§ 287, because the statute extends to “persons making
or selling any patented article for or under [the

App-56
patentee].” Id. (quoting § 287(a)). Recognizing that it
may be difficult for a patentee to ensure his licensees’
compliance with the marking provisions, we have held
that where third parties are involved, courts may
consider “whether the patentee made reasonable
efforts to ensure compliance with the marking
requirements.” Id. at 1111-12. This “rule of reason”
inquiry is “consistent with the purpose of the
constructive notice provision—to encourage patentees
to mark their products in order to provide notice to the
public of the existence of the patent and to prevent
innocent infringement.” Id. at 1112.
We have explained that the marking statute
serves three related purposes: (1) helping to avoid
innocent infringement; (2) encouraging patentees to
give public notice that the article is patented; and (3)
aiding the public to identify whether an article is
patented. Nike, Inc. v. Wal-Mart Stores, Inc., 138 F.3d
1437, 1443 (Fed. Cir. 1998) (collecting authorities).
Although patent infringement is a strict liability tort,
a patentee who sells or permits the sale of unmarked,
patented articles misleads others into believing they
are free to make and sell an article actually covered by
patent. Marking helps reduce innocent infringement
by notifying the public that the article is patented. See
Motorola, 729 F.2d at 772.
The parties dispute whether Arctic Cat’s
licensee’s failure to mark certain products limits
Arctic Cat’s damages. In February 2002, Arctic Cat
entered into a fully paid-up license agreement with
Honda in which Honda paid $315,000 for licenses to
two earlier-issued Arctic Cat patents and any later
patents “that patently cover Arctic Cat’s Controlled

App-57
Thrust Steering methods, systems and developments.”
J.A. 3540 ¶ EE; J.A. 7830-31 §§ 1.01, 3.01. The
agreement includes the patents-in-suit. J.A. 3540
¶ EE. The agreement specifically states Honda “shall
have no obligation or requirement to mark” its
licensed products. J.A. 7833 § 6.01. Honda sold PWCs
in the United States through 2009 and Arctic Cat
made no effort to ensure Honda marked those PWCs.
J.A. 3540-41 ¶¶ II, JJ. At trial, the jury found
damages began on October 16, 2008, before BRP
received actual notice of infringement. J.A. 94.
There is no dispute that the patentee bears the
burden of pleading and proving he complied with
§ 287(a). Maxwell, 86 F.3d at 1111. There is no dispute
that Arctic Cat did not require Honda to mark; in fact,
it expressly authorized Honda to sell licensed products
without marking. And it is likewise undisputed that
Honda did not mark any of its PWCs with the patent
numbers at issue. Thus, if Honda sold PWC products
covered by the patents at issue, Arctic Cat has failed
to satisfy the marking requirements. The only dispute
between the parties is whether any of the Honda
PWCs was covered by the patent claims at issue. BRP
explains the issue on appeal: “The only area of dispute
between the parties was whether the PWCs that
Honda sold were patented articles that were required
to be marked. Which party bears the burden on this
issue is a question of first impression for this Court
and has split district courts.” Appellant’s Br. 37.
On summary judgment, the district court in this
case held that the burden of proving compliance with
marking is placed on the defendant and that “the
burden of production does not shift to the plaintiff to

App-58
show compliance with a marking statute.” J.A. 58-59.
And again in the denial of judgment as a matter of law,
the district court repeated its belief that “BRP bears
the burden of proving the defen[se] of marking.” J.A.
75. This was a legal error. The burden of proving
compliance with marking is and at all times remains
on the patentee. As in this case where BRP identified
fourteen unmarked Honda PWCs, which it argued fell
within the patent claims, it was the patentee’s burden
to establish compliance with the marking statute—
that these products did not fall within the patent
claims.
There is a split among the district courts
regarding which party must initially identify the
products which it believes the patentee failed to mark.
Some courts require the alleged infringer to initially
identify products it believes practice the asserted
patents. See, e.g., Fortinet, Inc. v. Sophos, Inc., No. 13CV-05831-EMC, 2015 WL 5971585, at *4-5 (N.D. Cal.
Oct. 14, 2015). These courts reason that “[a]bsent
guidance from the other side as to which specific
products are alleged to have been sold in
contravention of the marking requirement, a
patentee . . . is left to guess exactly what it must prove
up to establish compliance with the marking statute.”
Sealant Sys. Int’l, Inc. v. TEK Glob. S.R.L., No. 5:11CV-00774- PSG, 2014 WL 1008183, at *31 (N.D. Cal.
Mar. 7, 2014), rev’d in part on other grounds, 616 F.
App’x 987 (Fed. Cir. 2015) (placing the initial burden
on the alleged infringer to put the patentee “on notice”
of unmarked products and finding it failed to meet its
burden because of conflicting expert testimony and
failure to produce admissible evidence showing a
patented product was sold); Fortinet, 2015 WL

App-59
5971585, at *5 (adopting a “burden of production on
[the alleged infringer] to identify the [unmarked
products] it believes practice the inventions claimed”
and granting partial summary judgment in favor of
the alleged infringer where its expert report was “not
too conclusory”); Unwired Planet, LLC v. Apple Inc.,
No. 13-CV-04134-VC, 2017 WL 1175379, at *5 (N.D.
Cal. Feb. 14, 2017) (holding “[a]t most, the infringer
bears some initial burden of plausibly identifying
products subject to the marking requirement” and
granting summary judgment in favor of the alleged
infringer where it submitted a declaration and
attached exhibits identifying particular products).
This district court agreed with that approach,
concluding that if the defendant did not at least have
the burden of identifying unmarked products it
believed fell within the claims, “a defendant’s general
allegations could easily instigate a fishing expedition
for the patentee.” J.A. 59.
Other courts have required the patentee prove
that none of its unmarked goods practice the asserted
claims. See, e.g., Adrea, LLC v. Barnes & Noble, Inc.,
No. 13-CV- 4137 JSR, 2015 WL 4610465, at *1-2
(S.D.N.Y. July 24, 2015). Courts adopting this
approach reason the patentee is in a better position to
know whether his goods practice the patents-in-suit.
Id. at *2 (citing Dunlap, 152 U.S. at 248); see also, e.g.,
DR Sys., Inc. v. Eastman Kodak Co., No. 08-CV0669H(BLM), 2009 WL 2632685, at *4 (S.D. Cal. Aug.
24, 2009) (“Just as a patentee’s compliance with the
marking statute is a matter particularly within its
knowledge, so are the details of its own product line.”);
Kimberly-Clark Worldwide, Inc. v. First Quality Baby

App-60
Prods., LLC, No. 1:09-CV-1685, 2013 WL 1821593, at
*3 (M.D. Pa. Apr. 30, 2013).
We hold an alleged infringer who challenges the
patentee’s compliance with § 287 bears an initial
burden of production to articulate the products it
believes are unmarked “patented articles” subject to
§ 287. To be clear, this is a low bar. The alleged
infringer need only put the patentee on notice that he
or his authorized licensees sold specific unmarked
products which the alleged infringer believes practice
the patent. The alleged infringer’s burden is a burden
of production, not one of persuasion or proof. Without
some notice of what market products BRP believes
required marking, Arctic Cat’s universe of products for
which it would have to establish compliance would be
unbounded. See Fortinet, 2015 WL 5971585, at *5
(“Without some notice of what marketed products may
practice the invention, AMI’s universe of products for
which it would have to establish compliance with, or
inapplicability of, the marking statute would be
unbounded.” (quoting Sealant, 2014 WL 1008183, at
*31)). Permitting infringers to allege failure to mark
without identifying any products could lead to a large
scale fishing expedition and gamesmanship. Once the
alleged infringer meets its burden of production,
however, the patentee bears the burden to prove the
products identified do not practice the patented
invention.
We do not here determine the minimum showing
needed to meet the initial burden of production, but
we hold in this case it was satisfied by BRP. At trial
BRP introduced the licensing agreement between
Honda and Arctic Cat showing Honda’s license to

App-61
practice “Arctic Cat patents that patently cover Arctic
Cat’s Controlled Thrust Steering methods, systems
and developments.” J.A. 7830 § 1.01. BRP identified
fourteen Honda PWCs from three versions of its
Aquatrax series sold between 2002 and 2009. J.A.
3540-41 ¶ II. BRP’s expert testified that he
“review[ed] information regarding those models” and
believed if BRP’s OTAS system practiced the patents,
so did Honda’s throttle reapplication system in the
Aquatrax PWCs. J.A. 2447-49; J.A. 2482. This was
sufficient to satisfy BRP’s initial burden of production.
At summary judgment, the district court found
BRP identified Honda PWCs and “presented an array
of evidence” alleging they practice the asserted
patents, but concluded BRP failed to meet its burden
because it did not conduct a claim analysis of the
products. J.A. 59-61. It later denied BRP’s motion for
judgment as a matter of law because BRP “failed as a
matter of law to meet its burden in proving that Honda
sold patented articles.” J.A. 75 (emphasis added). The
district court erred when it placed this burden on the
alleged infringer. BRP shouldered only a burden of
production to identify unmarked products that it
alleges should have been marked. It was Arctic Cat’s
burden to prove those products—once identified—do
not practice the patent-at-issue. The alleged infringer
need not produce claim charts to meet its initial
burden of identifying products. It is the patentee who
bears the burden of proving that it satisfied the
marking requirements and thus the patentee who
would have to prove that the unmarked products
identified by the infringer do not fall within the patent
claims. The district court erred in placing this burden

App-62
upon BRP and thus we vacate and remand on
marking.
Because the district court adopted this legal
approach at the summary judgment stage, it made
clear to the parties that it would be BRP’s burden to
prove that the unmarked products fell within the
patent claims. Arctic Cat, therefore, did not have a fair
opportunity to develop its case regarding the Honda
PWCs at trial. Because Arctic Cat was not on notice
regarding its burden, and in fact labored under the
assumption that BRP had the burden of proof,
reversal would be improper. We thus vacate the
district court’s judgment as to marking and remand so
that Arctic Cat has an opportunity to proffer evidence
related to the identified Honda PWCs. 2 Because we
conclude BRP has met its initial burden of production,
Arctic Cat must now establish the Honda PWCs do not
practice the asserted patents to recover damages
under the constructive notice provisions of § 287.
III. Damages
BRP appeals the district court’s denial of
judgment as a matter of law that the jury’s royalty
award of $102.54 per infringing unit should be vacated
based on inadmissible expert testimony. Prior to trial,
the district court denied BRP’s Daubert motion to
exclude this testimony of Arctic Cat’s expert, Walter
Bratic, regarding the calculation of a reasonable
royalty rate. J.A. 24-28. BRP also appeals the district
court’s grant of an ongoing royalty of $205.08 per
infringing unit. J.A. 137-44.
2 We leave it to the district court to determine if additional
discovery on this issue is appropriate in light of our ruling.

App-63
A. Reasonable Royalty Rate
The Eleventh Circuit reviews Daubert decisions
for abuse of discretion. Quiet Tech. DC-8, Inc. v. HurelDubois UK Ltd., 326 F.3d 1333, 1339-40 (11th Cir.
2003). “We review the jury’s determination of the
amount of damages, an issue of fact, for substantial
evidence.” Lucent Techs., Inc. v. Gateway, Inc., 580
F.3d 1301, 1310 (Fed. Cir. 2009).
BRP raises the same arguments to exclude the
testimony of Mr. Bratic rejected by the district court.
BRP argues Mr. Bratic erroneously used BRP’s laterdeveloped “Intelligent Brake and Reverse” (“iBR”)
system as a value benchmark for BRP’s allegedly
infringing and earlierdeveloped OTAS system. It
argues that Mr. Bratic failed to establish that iBR is
sufficiently comparable to the technology and value of
OTAS, and thus his benchmark cannot serve as the
basis for the jury’s royalty award. The district court
found that Mr. Bratic properly relied on the opinion of
another Arctic Cat expert, Dr. Cuzzillo, who opined
that OTAS and iBR are of comparable technological
and safety value. J.A. 24-26. The district court noted
that Dr. Cuzzillo’s opinion was not vague or conclusory
but based on “his own investigation of the OTAS and
iBR brake technologies, how they work, and the
benefits provided as well as discussions with [another
expert and review of his report].” J.A. 25-26. To the
extent BRP found the comparison problematic, the
district court suggested “that is a line of attack more
appropriately addressed through cross-examination.”
J.A. 26. BRP was given this chance at trial. E.g., J.A.
1738-43.

App-64
We agree with the district court’s analysis and
conclude it did not abuse its discretion in admitting
Mr. Bratic’s damages testimony. Cf. Apple Inc. v.
Motorola, Inc., 757 F.3d 1286, 1316-20 (Fed. Cir. 2014)
(factually attacking the accuracy of a benchmark goes
to evidentiary weight, not admissibility), overruled on
other grounds by Williamson v. Citrix Online, LLC,
792 F.3d 1339 (Fed. Cir. 2015) (en banc). Because BRP
does not argue the royalty rate is not otherwise
supported by substantial evidence, 3 we affirm the
district court’s denial of judgment as a matter of law
as to the jury’s reasonable royalty rate.
B. Ongoing Royalty Rate
We review for abuse of discretion a district court’s
grant of an ongoing royalty. Whitserve, LLC v.
Computer Packages, Inc., 694 F.3d 10, 35 (Fed. Cir.
2012). Ongoing royalties may be based on a postjudgment hypothetical negotiation using the GeorgiaPacific factors. Fresenius USA, Inc. v. Baxter Int’l,
Inc., 582 F.3d 1288, 1303 (Fed. Cir. 2009) (citing
Georgia-Pac. Corp. v. U.S. Plywood Corp., 318 F.
Supp. 1116, 1120 (S.D.N.Y. 1970)).
The district court did not abuse its discretion in
awarding an ongoing royalty rate. The district court
weighed the relevant Georgia-Pacific factors and
determined that Arctic Cat is entitled to an ongoing
BRP states in a footnote that even if this testimony were
admissible, it is irrelevant and thus Arctic Cat failed to provide
sufficient evidence to support the jury’s award. Appellant’s Br. 46
n.3. This single sentence, devoid of any analysis, is insufficient
for BRP to meet its burden on appeal, and we nevertheless
conclude Mr. Bratic’s testimony constitutes substantial evidence
supporting the jury’s reasonable royalty award.
3

App-65
royalty amount higher than the jury rate. J.A. 137-42.
While BRP argues the rate impermissibly covers its
profits, we have affirmed rates at or near the
infringer’s alleged profit margin. See, e.g., Golight, Inc.
v. Wal-Mart Stores, Inc., 355 F.3d 1327, 1338-39 (Fed.
Cir. 2004) (affirming district court’s grant of a
reasonable royalty the defendant argued covered its
profits); Bos. Sci. Corp. v. Cordis Corp., 497 F. App’x
69 (Fed. Cir. 2013) (same for ongoing royalties); cf.
Douglas Dynamics, LLC v. Buyers Prods. Co., 717 F.3d
1336, 1346 (Fed. Cir. 2013) (vacating and remanding
a royalty award where the district court “clearly erred
by limiting the ongoing royalty rate based on [the
defendant’s] profit margins”). And we have explained
that “[o]nce a judgment of validity and infringement
has been entered . . . the calculus is markedly
different because different economic factors are
involved.” Amado v. Microsoft Corp., 517 F.3d 1353,
1362 (Fed. Cir. 2008); see also Paice LLC v. Toyota
Motor Corp., 504 F.3d 1293, 1317 (Fed. Cir. 2007)
(Rader, J., concurring) (“[P]re-suit and post-judgment
acts of infringement are distinct, and may warrant
different royalty rates given the change in the parties’
legal relationship and other factors.”). We see no abuse
of discretion in the district court’s analysis and affirm
its order awarding an ongoing royalty.
IV. Willfulness & Enhanced Damages
We review enhanced damages under 35 U.S.C.
§ 284 for abuse of discretion. Halo Elecs., Inc. v. Pulse
Elecs., Inc., 136 S. Ct. 1923, 1934 (2016). A party
seeking enhanced damages under § 284 bears the
burden of proof by a preponderance of the evidence. Id.
(citing Octane Fitness, LLC v. ICON Health & Fitness

App-66
Inc., 134 S. Ct. 1749, 1758 (2014)). The Eleventh
Circuit reviews de novo previously raised objections to
jury instructions and gives district courts wide
discretion in wording so long as the instructions
accurately state the law. SEC v. Big Apple Consulting
USA, Inc., 783 F.3d 786, 802 (11th Cir. 2015).
BRP appeals the district court’s denial of
judgment as a matter of law that it did not willfully
infringe the asserted patents because the jury’s
willfulness finding is not supported by substantial
evidence and the district court erred in instructing the
jury. It also argues the district court abused its
discretion by trebling damages.
The jury’s willfulness finding is supported by
substantial evidence. In denying BRP’s motion for
judgment as a matter of law on willfulness, the district
court found substantial evidence demonstrated that
BRP knew about the patents before they issued,
conducted only a cursory analysis of the patents,
waited years before seeking advice of qualified and
competent counsel, and unsuccessfully tried to buy the
asserted patents through a third party. J.A. 70-72.
The district court denied BRP’s renewed motion for
judgment as a matter of law on willfulness, stating it
“will not second-guess the jury or substitute [the
court’s] judgment for its judgment” where the verdict
is supported by substantial evidence. J.A. 124. Neither
will we.
We reject BRP’s argument that the district court’s
jury instruction was erroneous. The district court
instructed the jury that as to willful infringement,
“Arctic Cat must prove by clear and convincing
evidence that BRP actually knew or should have

App-67
known that its actions constituted an unjustifiably
high risk of infringement of a valid and enforceable
patent.” J.A. 3037 (emphasis added). BRP argues this
“should have known” standard contradicts Halo.
Appellant’s Br. 61 (citing Halo, 136 S. Ct. at 1933). But
this Court addressed this issue and concluded:
Halo did not disturb the substantive standard
for the second prong of Seagate, subjective
willfulness. Rather, Halo emphasized that
subjective willfulness alone—i.e., proof that
the defendant acted despite a risk of
infringement that was “‘either known or so
obvious that it should have been known to the
accused infringer,’” Halo, 136 S. Ct. at 1930
(quoting Seagate, 497 F.3d at 1371)—can
support an award of enhanced damages.
WesternGeco L.L.C. v. ION Geophysical Corp., 837
F.3d 1358, 1362 (Fed. Cir. 2016). Thus, the court did
not err in instructing the jury as BRP argues.
Finally, the district court did not abuse its
discretion by trebling damages. While the district
court initially trebled damages without much
explanation, J.A. 97-98, it explained its decision in a
subsequent thorough and well-reasoned opinion. See
J.A. 99-116 (applying the factors outlined in Read
Corp. v. Portec, Inc., 970 F.2d 816 (Fed. Cir. 1992)).
Although the district court did not allow the parties to
brief the issue, we will not adopt a blanket rule that a
district court abuses its discretion by deciding an issue
without receiving briefing from the parties. That is
especially true where, as here, BRP attacks the
district court’s procedure but does not explain how
additional briefing would have changed the outcome.

App-68
In short, BRP has not shown that the district court’s
failure to allow briefing amounts to an abuse of
discretion. We affirm the district court’s denial of
judgment as a matter of law on willfulness and its
order trebling damages.
CONCLUSION
For the foregoing reasons, we affirm the district
court’s denial of judgment as a matter of law that the
asserted claims would have been obvious, that the
jury-awarded royalty rate should be vacated, and that
BRP did not willfully infringe the asserted claims. We
also affirm the district court’s orders granting an
ongoing royalty and trebling damages. We vacate the
district court’s denial of judgment as a matter of law
as to marking and remand for a new trial on this issue.
AFFIRMED IN PART, VACATED IN PART, AND
REMANDED

App-69
Appendix D
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA
________________
No. 14-CV-62369
________________
ARCTIC CAT INC.,
v.

Plaintiff,

BOMBARDIER RECREATIONAL PRODUCTS INC.,
and BRP U.S. INC.,
Defendants.
________________
Filed: May 31, 2016
________________
ORDER DENYING JUDGMENT
AS A MATTER OF LAW
________________
THIS CAUSE is before the Court upon
Defendants Bombardier Recreation Products, Inc. and
BRP U.S. Inc.’s (hereinafter, referred to together as
“BRP” or “Defendant”) Motion for Judgement as a
Matter of Law (the “Motion”), pursuant to Federal
Rule of Civil Procedure 50(a), made in open Court on
May 25, 2016, at the close of Plaintiff Arctic Cat Inc.’s
(“Plaintiff,” “Arctic Cat,” or “AC”) case-in-chief and
prior to the Court’s submission of the matter to the
jury. See ECF No. [145] (trial minutes). After careful
consideration of the parties’ oral argument on the

App-70
Motion, the evidence presented at trial, the record,
and the applicable law, the Motion is denied.
I.

Background

Plaintiff brought the instant suit against BRP on
October 16, 2014, for infringement on Arctic Cat’s
patents, including U.S. Patent Nos. 6,793,545 (“the
‘545 Patent”) and 6,568,969 (“the ‘969 Patent,”
together with the ‘545 Patent, the “Patents” or
“Patents at Issue”). AC filed the Patents at Issue to
protect its development of “a novel and effective thrust
mechanism to provide riders with temporary
‘steerable thrust’ in conditions where a rider turns the
steering mechanism of the [personal watercraft
‘PWC’] and the throttle is returned to the idle
position . . . which allows for a safer and more
intuitive riding experience.” ECF No. [36] (Amended
Complaint) at 3. Specifically, Plaintiff asserts that
BRP infringed upon various claims contained within
the Patents at Issue through the sale of certain models
of PWCs under the name Sea-Doo, beginning in 2009,
which incorporated Off-Throttle Assisted Steering
(“OTAS”). OTAS is a technology that “maintains or
increases engine speed to approximately 3,000 RPM
for a temporary period to provide the rider with
steerable thrust.” Id. at 4.
After this action proceeded through discovery, on
May 2, 2016, the Court granted in part and denied in
part BRP’s Motion for Summary Judgment, ECF No.
[78], precluding AC from recovering damages for any
alleged infringement of the ‘969 Patent after May 27,
2011, the date of the ‘969 Patent’s expiration. ECF No.
[119] (“Order on Summary Judgment”). Accordingly,
this case proceeded to trial on all other issues relating

App-71
to infringement, validity, and damages, beginning on
May 16, 2016, see ECF No. [138] (trial minutes). The
Motion for judgment as a matter of law timely and
properly renews BRP’s arguments from their
summary judgment motion as to validity,
infringement, laches, and damages. Additionally, BRP
now seeks judgment as a matter of law on the issue of
willfulness.
II. Review Standard
In this patent case, this Court applies the law of
the Eleventh Circuit with respect to evidentiary issues
and the standard applicable to a motion for judgment
as a matter of law. See Retractable Tech., Inc. v.
Becton, Dickinson and Co., 653 F.3d 1296, 1302 (Fed.
Cir. 2011) (“In reviewing evidentiary rulings and
denials of motions for JMOL, we apply the law of the
regional circuit.”); see Liquid Dynamics Corp. v.
Vaughan Co., 449 F.3d 1209, 1218 (Fed. Cir. 2006)
(applying regional circuit law when reviewing a
Daubert ruling). Under Rule 50(a), “[i]f a party has
been fully heard on an issue during a jury trial and the
court finds that a reasonable jury would not have a
legally sufficient evidentiary basis to find for the party
on that issue, the court may resolve the issue against
the party.” Fed. R. Civ. P. 50(a). The Eleventh Circuit
has instructed that Rule 50 motions “should be
granted . . . when the plaintiff presents no legally
sufficient evidentiary basis for a reasonable jury to
find for him on a material element of his cause of
action.” Howard v. Walgreen Co., 605 F.3d 1239, 1242
(11th Cir. 2010); see Chaney v. City of Orlando, Fla.,
483 F.3d 1221, 1227 (11th Cir. 2007) (internal
quotation and formatting removed) (“Under Rule 50, a

App-72
party’s motion for judgment as a matter of law can be
granted at the close of evidence or, if timely renewed,
after the jury has returned its verdict, as long as there
is no legally sufficient evidentiary basis for a
reasonable jury to find for the non-moving party.”).
When reviewing a motion under Rule 50, the
Court is obligated to review the evidence in the light
most favorable to the non-moving party. Hanes v.
Greyhound Lines, Inc., 316 F. App’x 841, 842 (11th Cir.
2008) (citing Daniel v. City of Tampa, 38 F.3d 546, 549
(11th Cir. 1994)); Sherrod v. Palm Beach Cnty. Sch.
Dist., 424 F. Supp. 2d 1341, 1344 (S.D. Fla. 2006)
(“[The Court] must view the evidence in a light most
favorable to the plaintiff, and must not weigh the
evidence nor assess witness credibility.”) (citing
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S.
133, 150 (2000))). Thus, as the Eleventh Circuit has
noted, “[w] here there is no change in the evidence, the
same evidentiary dispute that got the plaintiff past a
summary judgment motion asserting [a particular
argument] will usually get that plaintiff past a Rule
50(a) motion asserting the [same argument], although
the district court is free to change its mind.” Johnson
v. Breeden, 280 F.3d 1308, 1318 (11th Cir. 2002)
(citing Abel v. Dubberly, 210 F.3d 1334 (11th Cir.
2000)).
III. Discussion
Pursuant to Fed. R. Civ. P. 50(a), BRP requests
judgment as a matter of law in its favor. The Motion
makes five primary arguments as to infringement,
willfulness, laches, damages and marking. Plaintiff
opposes the sought-after relief, arguing that Arctic
Cat has presented enough evidence at trial for a

App-73
reasonable jury to have a legally sufficient basis to
find in its favor. The Court addresses each argument
in turn.
A. Infringement
Defendant first argues that Arctic Cat has not
presented legally sufficient evidence from which a
reasonable jury could conclude that the accused
products infringe any asserted claims. Plaintiff, of
course, disagrees. Nevertheless, the parties’
arguments on infringement amount to disputes
relating to a proper application of the claim language
to the Accused Products. As the Court held on
summary judgment, the application of referenced
terms of art, such as “immediately,” “thrust at a level,”
and “rotationally independent,” pursuant to the
Court’s claim constructions, to the Accused Products
are questions of fact that should be left to the jury.
Markman v. Westview Instruments, Inc., 52 F.3d 967,
976 (Fed. Cir. 1995), aff’d, 517 U.S. 370 (1996) (“The
patented invention as indicated by the language of the
claims must first be defined (a question of law), and
then the trier of fact must judge whether the claims
cover the accused device (a question of fact).”) (quoting
Envirotech Corp v. AI George, Inc., 730 F.2d 753, 758
(Fed. Cir. 1984)).
The Court finds that Arctic Cat has presented
sufficient evidence from which a reasonably jury could
find that the Sea-Doo product infringes the asserted
claims. Contrasting expert testimony has been
presented to the jury on the issue of the term
“immediately” and its application. Among other
examples, Dr. Bernard Cuzzillo has opined from the
stand based on his personal review and analysis of the

App-74
BRP personal watercraft, on-water testing with Mr.
Paul Kamen, as well as his review and analysis of the
Bosch function sheet and other documents that the
BRP personal watercraft do, in fact, infringe each
asserted claim of the ‘545 and the ‘969 patent.
Likewise, Dr. Cuzzillo, Mr. Kamen, and Mr. Robert
Taylor, spoke to variation in the amount of thrust
during a single activation of a controlled-thrust
steering system. Dr. Cuzzillo testified that the OTAS
magnets and the OTAS switch are, in fact, rotationally
independent because they do not rotate together. Mr.
Taylor, likewise, testified that, as specifically
described in Figure 13 of the ‘545 and ‘969 patents,
what is happening is that the magnets are rotating
while the switch is fixed, just like in the BRP OTAS
system. As to the method claims, Arctic Cat has
entered into evidence a test video of Mr. Kamen
driving BRP Sea-Doo personal watercraft while
enabling the OTAS feature multiple times. See Mirror
Worlds, LLC v. Apple Inc., 692 F.3d 1351, 1359 (Fed.
Cir. 2012) (“Direct infringement of a method claim can
be based on even one instance of the claimed method
being performed. A patentee need not always have
direct evidence of infringement, as infringement may
be established by circumstantial evidence. However,
Mirror Worlds, as the patentee here, has to show that
Apple performed all of the steps in the claimed
methods.”) (citation omitted). Arctic Cat has clearly
met its burden under Rule 50(a) to allow the issue of
infringement to proceed to the jury for their
determination. Accordingly, BRP’s Motion is denied as
to infringement.

App-75
B. Willfulness
Next, BRP argues that Arctic Cat has failed to
present evidence that it acted objectively reckless, as
required by the first objective prong of the Seagate test
for willfulness. Pursuant to this prong, Arctic Cat
must demonstrate by clear and convincing evidence
that BRP acted despite an objectively high likelihood
that BRP’s actions infringed a valid and enforceable
patent, i.e., whether BRP’s reliance on a valid defense
to infringement was not objectively reckless. “The civil
law generally calls a person reckless who acts . . . in
the face of an unjustifiably high risk of harm that is
either known or so obvious that it should be known.”
In re Seagate Tech., LLC, 497 F.3d 1360, 1371 (Fed.
Cir. 2007).
Although an infringer need not prove that it
sought the advice of competent counsel in order to
defeat a claim of willful infringement, Electro Med.
Sys., S.A. v. Cooper Life Scis., Inc., 34 F.3d 1048, 1056
(Fed. Cir. 1994) (“Possession of a favorable opinion of
counsel is not essential to avoid a willfulness
determination”), whether or not an alleged infringer
sought the advice of counsel is “crucial to the
[willfulness] analysis.” Seagate, 497 F.3d at 1369.
Alternatively,
“both
legitimate
defenses
to
infringement claims and credible invalidity
arguments demonstrate the lack of an objectively high
likelihood that a party took actions constituting
infringement of a valid patent.” Black & Decker, Inc.
v. Robert Bosch Tool Corp., 260 F. App’x 284, 291 (Fed.
Cir. 2008). The question for the Court in this regard is
“whether an accused infringer’s reliance on a
particular issue or defense is reasonable.” Powell v.

App-76
Home Depot U.S.A., Inc., 663 F.3d 1221, 1236 (Fed.
Cir. 2011); see WesternGeco L.L.C. v. ION Geophysical
Corp., 791 F.3d 1340, 1354 (Fed. Cir. 2015) (citing
Spine Solutions, Inc. v. Medtronic Sofamor Danek
USA, Inc., 620 F.3d 1305, 1319 (Fed. Cir. 2010)
(“[U]nreasonableness, not a lack of success,
determines whether enhanced damages are
awarded.”). “If the accused infringer’s position is
susceptible to a reasonable conclusion of no
infringement, the first prong of Seagate cannot be
met.” Uniloc USA, Inc. v. Microsoft Corp., 632 F.3d
1292, 1310-11 (Fed. Cir. 2011) (“Uniloc has failed to
meet the threshold objective prong of Seagate. Uniloc
has not presented any evidence at trial or on appeal
showing why Microsoft, at the time it began
infringement, could not have reasonably determined
that [its products] did not meet the . . . limitations [of
the patent at issue]. Specifically, infringement of the
[patent] limitation is a complicated issue.”);
Rembrandt Vision Techs., L.P. v. Johnson & Johnson
Vision Care, Inc., 282 F.R.D. 655, 668-69 (M.D. Fla.
2012), aff’d, 725 F.3d 1377 (Fed. Cir. 2013)
(“Rembrandt has not presented a legally sufficient
evidentiary basis for a reasonable jury to find by clear
and convincing evidence that JJVC acted despite an
objectively high likelihood that its actions constituted
infringement of a valid patent. JJVC presented cogent
and reasonable arguments that its products did not
meet several limitations [of the patent at issue] . . . .
Moreover, the Court finds that JJVC’s reliance on its
claim construction arguments and indefiniteness
defenses was not objectively reckless.”); see Advanced
Fiber Techs. (AFT) Trust v. J & L Fiber Servs., Inc.,
674 F.3d 1365, 1377-78 (Fed. Cir. 2012) (affirming

App-77
district court decision finding that defendant’s acts
were not objectively reckless, based on: “(1) the
language of the ‘072 patent, which ‘leaves significant
doubt as to the patent’s validity’; (2) J & L’s
‘compelling
non-infringement
and
invalidity
arguments’; (3) the PTO’s ‘rejection of the reissue
application based on it being ‘structurally
indistinguishable’ from the Gillespie [prior art
patent]’; and (4) the fact that the meaning of certain
key claim terms in the ′072 patent only became clear
through
AFT’s
arguments
during
reissue
prosecution.”).
Under the objective prong, the answer to whether
an accused infringer’s reliance on a particular issue or
defense is reasonable is a question for the court when
the resolution of that particular issue or defense is a
matter of law. Powell v. Home Depot U.S.A., Inc., 663
F.3d 1221, 1236 (Fed. Cir. 2011) (citing Cohesive Tech.,
Inc. v. Waters Corp., 543 F.3d 1351, 1374 (Fed. Cir.
2008)) (applying the clearly erroneous standard of
review to the district court’s willful infringement
determination under the objective prong based on the
closeness of the claim construction inquiry). Should
the court determine that the infringer’s reliance on a
defense was not objectively reckless, it cannot send the
question of willfulness to the jury, since proving the
objective prong is a predicate to consideration of the
subjective prong. Id. When the resolution of a
particular issue or defense is a factual matter,
however, whether reliance on that issue or defense
was reasonable under the objective prong is properly
considered by the jury. Id. at 1236-37. In
circumstances, then, where separate issues of fact and
law are presented by an alleged infringer as defenses

App-78
to willful infringement, the objective recklessness
inquiry may require analysis by both the court and the
jury. Id. at 1237 (“For instance, in this case, certain
components of the case were before the jury, while
others were not. The court decided issues of claim
construction and inequitable conduct, neither of which
was before the jury. Thus, while the jury was in a
position to consider how the infringement case
weighed in the objective prong analysis, on other
components—such as claim construction—the
objective prong question was properly considered by
the court.”).
The Southern District case of Creative
Compounds, LLC v. Starmark Laboratories, Inc., No.
07-22814-CIV, 2010 WL 2757196, *5 (S.D. Fla. 2010)
is instructive. In that case, the district court held that
Creative sought and reasonably relied on the advice of
competent and objective patent counsel, who
concluded that Creative’s work substantially predated
the work of Starmark’s predecessor and would thus
render the subject patent—were it to issue—
unenforceable. Id. Furthermore, Creative sought
advice of counsel before it engaged in any potentially
infringing activities, as the exculpatory letter was
dated August 25, 2006—approximately one month
prior to the issuance of the patent. Id.
Here, testimony has been presented conclusively
demonstrating that BRP’s agent, Mr. Goudrault of
BRP’s IP Department, knew about the subject patents
before they issued. See State Industries, Inc. v. A.O.
Smith Corp., 751 F.2d 1226, 1236 (Fed. Cir. 1985) (“To
willfully infringe a patent, the patent must exist and
one must have knowledge of it.”). Mr. Daujenais and

App-79
Mr. Goudrault confirmed that fact. Indeed, Mr.
Goudrault stated at trial that he made a note in his
file to reexamine the patent after its issuance. See id.
Furthermore, Mr. Goudrault only analysis of the
patent—on which BRP exclusively relied—consisted
of one conclusory sentence on a page of handwritten
notes. The witness, himself, testified that he would not
provide such an opinion to one of his clients today.
Even if a larger file existed that has gone missing in
the years since he conducted his analysis, importantly,
Mr. Goudrault is not an attorney. Thus, whatever the
quality of his work, BRP cannot legally rely on him to
establish the advice of counsel defense. So, despite
specifically noting the relevance of Arctic Cat’s patent
application, BRP chose not to seek advice of qualified
and competent counsel until much later, after
unsuccessfully attempting to purchase Arctic Cat’s
patents through a third party. In Creative, the
defendant sought advice of counsel before it engaged
in potentially infringing activities. Here, by contrast,
by the time that BRP got around to getting any sort of
opinion from Mr. Marcus, BRP had known about the
patents already for eight years. Testimony has
established that BRP had been selling potentially
infringing products across their entire product line for
at least a half a decade.
In cases where no advice of counsel was sought by
the accused infringer, Seagate provides that a court
may find that a defendant objectively relied on
another reliable defense to infringement, such as noninfringement or invalidity of the underlying patent.
Nevertheless, cases that have found no willfulness
despite no advice of counsel have involved much
stronger facts than those present in this action, such

App-80
as where the finds weak evidence of infringement
altogether. In Eastman Kodak Co. v. Agfa-Gevaert
N.V., 560 F. Supp. 2d 227, 301-05 (W.D.N.Y. 2008),
judgment entered, 2008 WL 5115252 (W.D.N.Y. 2008)
and aff’d, 351 F. App’x 441 (Fed. Cir. 2009), for
example, the district court based its finding of lack of
recklessness on a finding of no infringement: “There
can be no willful infringement where there is no
infringement. . . . Agfa has not infringed.” Id. at 302.
Furthermore, the Court noted that the defendants
made conscious efforts to design products around
claims inventions, and the plaintiff had a group
monitoring defendant’s activities but did not inform
defendant of allegedly infringing activities for six
years. Id. at 303 (“[Defendants] were aware of the
Kodak patents and took the patents into account when
they deliberately designed their products to avoid
infringing the Kodak patents. Mr. Hawley testified to
that effect with regard to the 1995 meeting between
Kodak and DuPont.”).
Here, in contrast, BRP attempted to purchase the
Arctic Cat patents, rather than planning in good faith
to design around them. When those efforts were
unsuccessful, BRP recommenced production of the
very models for which they had expressed concern
regarding potential infringement—and then sought
advice of counsel as to non-infringement years after
learning about the patents. It was objectively reckless
for BRP to rely on an infringement defense where its
own experts had already concluded a likelihood of
infringement.
BRP’s last contention is its invalidity defense.
However, this defense depends upon prior art that was

App-81
squarely before the Patent and Trademark Office
when the Office decided to issue the ‘545 and ‘969
Patents. Although perhaps not dispositive, the Court
cannot find that it was objectively reasonable for BRP
to rely on obviousness as a theory of invalidity where
the USPTO specifically drew the opposite
conclusion—finding that the patent claims were not so
obvious as to preclude the issuance of the patents. In
light of the foregoing, the Court holds that BRP acted
despite an objectively high risk of infringement.
Accordingly, the threshold prong of Seagate is
satisfied, and the issue of subjective willfulness will be
considered by the jury.
C. Damages and Marking
BRP also seeks judgment as a matter of law on the
related issues of damages and marking. Defendant
first argues that, because Arctic Cat’s damages expert,
Dr. Walter Bratic, improperly relied on information
that was not foreseeable or knowable to the parties at
a 2004 hypothetical negotiation and completely
excluded information that parties actually knew in
2004, Arctic Cat has failed to sustain its burden of
proof on damages. As discussed on summary
judgment, BRP’s argument on this “book of wisdom”
issue boils down to a challenge over the correct
measure of damages in this case, an issue hotly
disputed by the parties. See Order on Summary
Judgment at 28; State Industries, Inc. v. Mor-Flo
Industries, Inc., 883 F.2d 1573, 1580 (Fed. Cir. 1989)
(“There is no rule that a royalty be no higher than the
infringer’s net profit margin.”); Trans-World Mfg.
Corp. v. Al Nyman & Sons, Inc., 750 F.2d 1552, 1568
(Fed. Cir. 1984) (“Evidence of the infringer’s actual

App-82
profits generally is admissible as probative of his
anticipated
profits.”).
Because
Mr.
Bratic,
indisputably a qualified expert to testify on damages
issues, presented for two hours as to appropriate
methodology for damages calculations, taking into
account proper legal doctrine and factual variables.
While Mr. Bratic’s theories may differ from that of Dr.
Keith Ugone, who has yet to testify, the Court will not
exclude Mr. Bratic’s relevant and reliable testimony
based on this dispute. With respect to the underlying
evidence on which Mr. Bratic relied, Dr. Cuzzillo and
Mr. Kamen both testified as to those predicate facts.
For these reasons, the Court finds that Arctic Cat has
more than satisfied its burden with respect to putting
on a damages case.
As to marking, BRP argues that Arctic Cat cannot
recover damages as to either Patent at Issue for sales
of the Accused Products prior to the date of the
Complaint, because Arctic Cat did not undertake
reasonable efforts to ensure that its licensee to the
patents-in-suit, Honda, complied with the marking
requirement of 35 U.S.C. § 287(a). Section 287(a)
provides that “[p]atentees, and persons making,
offering for sale, or selling within the United States
any patented article for or under them . . . may give
notice to the public that the same is patented” by
marking each patented article with the patent
number. Id. If the patent “contains both apparatus
and method claims, to the extent that there is a
tangible item to mark by which notice of the asserted
method claims can be given, a party is obliged to do so”
in order to satisfy the requirements of § 287(a). Am.
Med. Sys., Inc. v. Med. Eng’g Corp., 6 F.3d 1523, 153839 (Fed. Cir. 1993); see Inline Connection Corp. v. AOL

App-83
Time Warner, 465 F. Supp. 2d 312, 324 (D. Del. 2007).
If a patentee fails to mark a patented product, it is
prohibited from collecting damages for the time period
prior to the date it gave the alleged infringer actual
notice of infringement. 35 U.S.C. § 287(a) (“In the
event of failure so to mark, no damages shall be
recovered by the patentee.”). Nevertheless, the
marking statute obviously does not require marking
when there is nothing to mark, Am. Med. Sys., 6 F.3d
at 1538, which is exactly what Arctic Cat suggests
here. See also Maxwell v. J. Baker, Inc., 86 F.3d 1098,
1111 (Fed. Cir. 1996) (stating that compliance with the
marking statute is a question of fact).
Because Arctic Cat stopped manufacturing and
selling PWCs before any asserted patent issued, the
only point of noncompliance with the statute could
arise from sales made by Honda, as its sole licensee.
But Honda’s sales are inconsequential unless the
Honda PWCs are “patented articles” within the scope
of the claims of the ‘545 and ‘969 patents. Section
287(a) applies to products sold by licensees. Amsted,
24 F.3d at 185; Maxwell, 86 F.3d at 1111. When the
failure to mark a patented product is caused by
someone other than the patentee, such as a licensee,
courts may consider whether the patentee “made
reasonable efforts to ensure compliance with the
marking requirements.” Maxwell, 86 F.3d at 1111-12.
Although the Federal Circuit has yet to resolve
competing views as to which party bears the burden of
establishing that there was a product that practiced
the patent, the Court held on summary judgment that
the burden of production does not shift to a plaintiff to
show compliance with a marking statute. Sealant Sys.

App-84
In’l, Inc. v. TEK Glob. S.R.L., No. 5:11-CV-00774-PSG,
2014 WL 1008183, at *30 (N.D. Cal. Mar. 7, 2014),
rev’d in part on other grounds, Sealant Sys. Int’l, Inc.
v. TEK Glob., S.R.L., 616 F. App’x 987 (Fed. Cir. 2015).
BRP requests that the Court reconsider its resolution
in the split of authority and hold that Arctic Cat bears
the burden of proof as to whether Honda’s PWCs were
patented articles. Because the Court finds no new
authority or convincing evidence otherwise, and the
policy rationale set forth by other Courts as support
for a defendant bearing the burden in proving relevant
defenses to liability, the Court will not reconsider its
ruling that BRP bears the burden in proving the
defendant of marking. See Order on Summary
Judgment at 59 (“Indeed, otherwise, a defendant’s
general allegations could easily instigate a fishing
expedition for the patentee in order to stave off pursuit
of damages for infringement. This theory also
comports with the general allocation of burden to proof
for defenses at common law.”).
It is undisputed that there is virtually no evidence
at all in this case that Honda is, or ever did, sell any
kind of patented article. For that reason, BRP has
failed as a matter of law to meet its burden in proving
that Honda sold patented articles, requiring Arctic
Cat to have taken reasonable efforts to ensure that
Honda comply with the marking requirement of 35
U.S.C. § 287(a) and, thereby, limiting potential
damages. BRP’s Motion for judgment as a matter of
law on damages and marking is, therefore, denied. As
detailed above, the issue of damages will be properly
presented to the jury for resolution of the parties’
competing views.

App-85
D. Laches
BRP challenges Arctic Cat’s right to damages in
this case pursuant to the doctrine of laches, which is
an equitable defense that limits recovery in
extraordinary circumstances, where a party
unreasonably delays filing suit. See SCA Hygiene
Prods. Aktiebolag v. First Quality Baby Prods., LLC,
807 F.3d 1311, 1333 (Fed. Cir. 2015) (en banc), cert.
granted, 1 No. 15-927 (U.S.); A.C. Aukerman Co. v. R.L.
Chaides Constr. Co., 960 F.2d 1020, 1041 (Fed. Cir.
1992) (en banc), overruled in part on other grounds by
SCA Hygiene, 807 F.3d at 1332. Whether or not laches
prevents the recovery of post-filing damages depends
on “the flexible rules of equity and . . . district court
discretion.” SCA Hygiene, 807 F.3d at 1333.
BRP alleges that because laches applies, the law
does not allow for the recovery of damages for
infringement that occurred prior to October 16, 2014,
the date that this lawsuit was filed. See id.
Specifically, BRP argues that because the patents-insuit clearly had application in the PWC industry,
Arctic Cat had a duty to investigate potentially
infringing activities—and its failure to do so and, thus,
its failure to initiate this lawsuit in a timely manner
was both unreasonable and inexcusable. Arctic Cat, in
response, defends the reasonableness of the delay and
urges the Court to make a decision on the merits of
this case, particularly as the law with respect to the
doctrine of laches is currently unsettled. Compare
1 The Supreme Court granted the petition for writ of certiorari
in SCA Hygiene, which was filed in January, on May 2, 2016—by
coincidence, the same date that the Court issued its Order
Denying Summary Judgment.

App-86
Petrella v. Metro-Goldwyn-Mayer, Inc., 134 S. Ct.
1962, 1967 (2014) (“Laches, we hold, cannot be
invoked to preclude adjudication of a claim for
damages brought within the three-year window
[provided by the Copyright Act].”) with SCA Hygiene,
807 F.3d at 1333 (holding, in a 6-5 split, that laches
remains a viable defense to legal relief in patent
cases). These cases do create a somewhat hazy
landscape; nevertheless, as to the merits, the standard
for laches has not changed.
To prove laches, a defendant normally shows
“that the plaintiff delayed filing suit an unreasonable
and inexcusable length of time after the plaintiff knew
or reasonably should have known of its claim against
the defendant; and . . . the delay resulted in material
prejudice or injury to the defendant.” Wanlass v.
General Electric, 148 F. 3d 1334, 1337 (Fed. Cir. 1998)
(citations omitted). The latter prong may be
established by either evidentiary or economic
prejudice. Id. Evidentiary prejudice arises when a
defendant’s ability to present a full and fair defense on
the merits is damaged by the loss of records, death of
a witness, or unreliable memories of past events,
undermining the court’s ability to judge the facts. Id.
However, a delay of more than six years in bringing
suit raises a presumption that the delay is
unreasonable, inexcusable, and prejudicial. Id. Once
the presumption arises, the patentee bears the burden
of showing “that either the patentee’s delay was
reasonable or excusable under the circumstances or
the defendant suffered neither economic nor
evidentiary prejudice. Whenever the presumption
arises, including in the summary judgment context,
the patentee’s evidence must be sufficient to raise a

App-87
genuine issue of material fact about either the excuse
for or reasonableness of the delay, or the existence of
the prejudice.” Id. at 1337.
The period of delay begins at the time that the
patentee had actual or constructive knowledge of the
defendant’s potentially infringing activities. Id. at
1337-38; Eastman Kodak Co. v. Goodyear Tire &
Rubber Co., 114 F.3d 1547, 1559 (Fed. Cir. 1997),
overruled in part on other grounds by Cybor Corp. v.
FAS Techs., Inc., 138 F.3d 1448, 1454-55 (Fed. Cir.
1998) (“[D]elay begins when the plaintiff knew, or in
the exercise of reasonable diligence should have known,
of the defendant’s allegedly infringing activity.”)
(emphasis added). The patent owner “is chargeable
with such knowledge as he might have obtained upon
inquiry.” Wanlass, 148 F.3d at 1338. “Pervasive, open,
and notorious activities” that would lead a reasonable
patentee to suspect infringement trigger this duty of
inquiry. Id. “For example, sales, marketing,
publication, or public use of a product similar to or
embodying technology similar to the patented
invention, or published descriptions of the defendant’s
potentially infringing activities, give rise to a duty to
investigate whether there is infringement.” Id.
More than ten years before Arctic Cat filed this
lawsuit, BRP was engaged in activities that it
describes as “pervasive, open, and notorious” and, it
argues, that should have led Plaintiff to investigate.
The record testimony demonstrates that Arctic Cat
was aware in 2002 that BRP was selling PWCs in the
United States. Beginning in 2004, these sales included
its Sea-Doo 3D equipped with OTAS. From 2004
through 2007, BRP openly distributed product

App-88
information clearly disclosing the use of OTAS in BRP
PWCs—for example, from 2004 to 2007, BRP
distributed to PWC retailers across the U.S. product
specification sheets for the Sea-Doo 3D indicating that
the 3D models were equipped with OTAS.
Additionally, operator’s guides for the 3D and
published articles, which would have been publically
available beginning in 2004, clearly indicated that
BRP’s 3D incorporated OTAS. In November 2005,
BRP’s website contained product information for a
2006 model of the 3D confirming that it was equipped
with OTAS. BRP argues that Arctic Cat should be
charged with constructive knowledge of infringement
starting in 2004 for these reasons. See BRP Reply at
14.
Because Arctic Cat waited well over six years
after that to sue BRP, the presumption of laches
attaches and Arctic Cat bears the burden of rebutting
the presumption. Thus, Arctic Cat, as the patentee,
must present evidence sufficient to rebut the
presumption,
demonstrating
excuse
for
or
reasonableness of the delay and/or the lack of the
prejudice under the circumstances. “The focus is on
reasonableness. A court must consider any excuse for
the delay offered by the plaintiff.” Gasser Chair Co.,
Inc. v. Infanti Chair Mfg. Corp., 60 F.3d 770, 773-74
(Fed. Cir. 1995) (“The first factor, the length of time
that is unreasonable or inexcusable delay in filing
suit, depends on the facts and circumstances of each
case.”) (citations omitted). The Court finds that Arctic
Cat has satisfied this burden.
Arctic Cat has demonstrated reasonableness of
the delay so as to preclude any finding of constructive

App-89
knowledge of infringement in 2004, as well as lack of
evidentiary or economic prejudice at trial. First, the
articles, product specification sheets, and other
advertisements did not outline the elements of the
OTAS system so as to establish that the system
contained components bearing directly on the Patents
at Issue. For this reason, Arctic Cat would not have
reasonably been put on notice of BRP’s potentially
infringing activities from these documents. Second,
although BRP points to 2004 as the pertinent date for
constructive knowledge, in 2004, BRP incorporated
OTAS only on a single BRP personal watercraft in its
PWC lineup—a PWC that was discontinued due to low
sales volume, as corroborated by trial testimony. See
Tripp v. United States, 406 F.2d 1066, 1071 (Ct. Cl.
1969) (finding that a plaintiff may reasonably delay an
infringement suit until it can “determine that the
extent of possible infringement made litigation
monetarily ripe”). Accordingly, had Arctic Cat known
of this single model, it would have been reasonable for
the Plaintiff to determine that bringing a suit against
the Defendant for infringement made little economic
sense. Furthermore, during a meeting between
representatives of BRP and Arctic Cat at Lake
Hamilton, Florida, in March 2000, Fernando Garcia
informed Arctic Cat’s Fred Bernier that BRP intended
to achieve off-throttle steering using a fin or rudder
based system, referred to throughout the trial as offpower assisted-steering (“OPAS”), rather than
utilizing the Arctic Cat throttle reapplication
technology. In view of Mr. Garcia’s express statement
and the fact that BRP did introduce its non-infringing
OPAS system on its PWC years before it included
OTAS on the 3D model, Arctic Cat alleges that it had

App-90
no reason to investigate BRP’s systems further. See
Aukerman, 960 F.2d at 1034 (reasonableness must be
judged based on the plaintiff’s knowledge).
Arctic Cat has presented evidence corroborating
its allegations that the 3D product had a minor
presence in the market and was discontinued shortly
after it was introduced, supporting the reasonableness
of no actual or constructive knowledge of the 3D
product—despite the fact that Arctic Cat was aware of
the non-infringing OPAS technology. Between 2004
and 2009, most BRP PWCs utilized the non-infringing
OPAS system. In fact, BRP began moving to OTAS on
the accused products only in 2009—5 years before this
lawsuit was filed. This evidence convinces the Court
that the delay in filing suit—a delay in which BRP’s
PWC models only began using OTAS widely in 2009,
which is unrebutted by BRP—was reasonable.
BRP further argues material prejudice from this
delay, resulting from missing evidence that would
further support its invalidity defenses. For example, a
BRP employee, Sam Spade, who, in 1998, built and
tested a BRP prototype that combined the throttle
reapplication system of Rheault with a PWC, known
as Proto-14—along with another BRP employee,
Richard Simard—recently passed away. BRP
maintains that the fact that Mr. Spade successfully
built and operated Proto-14 in 1998 supports its first
argument that the asserted claims were obvious to
those skilled in the art. Mr. Spade was the engineer
who actually built the system, and he likewise would
be the only one with knowledge as to whether Proto14 was ever publicly demonstrated. Nevertheless,
BRP acknowledges that knowledge of Proto-14 is not

App-91
significant evidence against validity, as it was never
released to the public and, thus, does not qualify as
prior art. The Defendant further contends that
witnesses still available have some difficulty recalling
events from the relevant time period. Michael
Okerland, in-house counsel for Arctic Cat since 2012,
conceded at trial that Arctic Cat was unable to recall
some facts relevant to this case, because employees
who had knowledge of the events at issue have since
retired or left the company, and/or those still with the
company have hazy memories. He also testified that
he did not know why Arctic Cat failed to pay
maintenance fees on the Patents at Issue. Likewise,
Mr. Christopherson testified in his deposition that he
could not remember the events of the March 1999
meeting. Had Arctic Cat brought this lawsuit earlier,
the company likely would have been able to produce a
more knowledgeable witness that could recall the
details integral to the instant action. See I/P Engine,
Inc. v. AOL Inc., 915 F. Supp. 2d 736, 747 (E.D. Va.
2012) (“[H]ad the suit been brought sooner, it [is] quite
probable that [the patentee] would have been able to
produce an institutional representative with better
knowledge of the period of time at issue in this case.”).
There can be no dispute that more evidence would
have been available to help resolve this controversy if
Arctic Cat had filed suit at an earlier date.
Nevertheless, the Court finds that BRP’s showing of
evidentiary prejudice is insufficient, as is any evidence
of economic prejudice, despite its claims to the
contrary. See Hemstreet v. Computer Entry Sys. Corp.,
972 F.2d 1290, 1294 (Fed. Cir. 1992) (holding that
absence of nexus between a patentee’s delay in filing
suit and infringer’s financial expenditures precludes a

App-92
finding of economic prejudice). With respect to
economic prejudice, BRP was aware of each Arctic Cat
controlled thrust steering patent shortly after each
one issued—and even beforehand, as evidenced by
Goudrault’s testimony and notes—as well as before
BRP sold any PWC with OTAS technology. BRP
believed that the Arctic Cat patents were invalid when
issued and never changed its position. BRP cannot, for
this reason, make any serious claim that it
implemented OTAS on its Sea-Doo PWC as a result of
Arctic Cat’s delay in filing suit.
BRP’s evidentiary prejudice argument is equally
flawed as it demonstrates a missing nexus between
the evidence alleged missing and the cause of the
delay. Aukerman Co., 960 F.2d at 1033 (“Material
prejudice to adverse parties resulting from the
plaintiff’s delay is essential to the laches defense.”).
Mr. Spade’s inability to participate in the litigation is
not prejudicial to BRP. Any speculation that
Defendant could have shown that Proto-14 was
publicly used through Mr. Spade’s testimony is just
that—speculation.
Furthermore,
the
evidence
presented thus far strongly suggests that Proto-14
was never revealed to the public in any fashion. Mr.
Spade certainly may have possessed more intimate
knowledge than Mr. Simard, a fellow BRP project
engineer that worked with Mr. Spade and rode and
tested Proto-14 in Florida. However, Mr. Simard was
able to testify at length about the components of Proto14, how it worked, and his documentation of the
testing as BRP’s 30(b)(6) representative—despite the
relative value of this testimony as compared to
testimony regarding other inventions that qualify as
prior art. BRP, thus, appears to have a record of any

App-93
and all relevant facts in this lawsuit relating to Proto14 without Mr. Spade’s testimony. Furthermore, the
absence of Mr. Goudrault’s partner, Mr. Cutler,
appears to have very little to do with the passage of
time—despite BRP’s protestations to the contrary—
and everything to do with the fact that BRP did not
call him as a witness despite his availability and
alleged relevance to the instant facts.
Although BRP points to potential weaknesses in
the record resulting from delay of the instant suit,
Arctic Cat sufficiently rebuts each of these points,
establishing that, while these issues are perhaps
inconvenient, they are not material by any stretch.
The evidence presented in this case along with the
testimony given at trial thus far convinces this Court
that laches cannot be invoked as a defense to
infringement.
IV. Conclusion
Accordingly, it is ORDERED AND ADJUDGED
that BRP’s Motion for Judgment as a Matter of Law is
DENIED as to all issues, including infringement,
willfulness, laches, and damages and marking. As a
matter of law, Defendant has failed to meet its burden
in proving its laches and marking defenses. The Court
finds, furthermore, that Defendant acted despite an
objectively high risk of infringement, requiring the
issue of willfulness to proceed to the jury for a
determination of the subjective prong of the Seagate
test.

App-94
DONE AND ORDERED in Miami, Florida, this
31st day of May, 2016.
[handwritten: signature]
BETH BLOOM
UNITED STATES
DISTRICT JUDGE

App-95
Appendix E
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA
________________
No. 14-CV-62369
________________
ARCTIC CAT INC.,
v.

Plaintiff,

BOMBARDIER RECREATIONAL PRODUCTS INC.,
and BRP U.S. INC.,
Defendants.
________________
Filed: July 27, 2016
________________
ORDER
________________
THIS CAUSE is before the Court upon the
Motion of Defendants Bombardier Recreation
Products, Inc. and BRP U.S. Inc. (hereinafter, referred
to together as “BRP” or “Defendant”) for an Order (A)
Vacating the Portion of the June 14, 2016, Final
Judgment Enhancing Damages, ECF No. [157]
(“Judgment”), and (B) Setting Briefing Schedule for
Consideration of Motion by Plaintiff for Enhanced
Damages. ECF No. [158] (the “Motion”). The Court has
reviewed the Motion, all supporting and opposing

App-96
submissions and exhibits, 1 and the applicable law, and
is otherwise fully advised. For the reasons set forth
below, the Motion is denied.
I.

Background

Following a jury trial, a verdict issued in the
above-styled case finding BRP liable to Plaintiff Arctic
Cat Inc. (“Plaintiff” or “Arctic Cat”) for willful
infringement through the sale of certain models of
personal watercraft (or “PWCs”) under the name, SeaDoo, which incorporated an off-throttle assisted
steering technology. See ECF No. [153] (Jury
“Verdict,” dated June 1, 2016). Therein, the jury found
by a preponderance of the evidence that BRP infringed
ten claims in Arctic Cat’s Patents, United States
Patent Numbers 6,793,545 (“the ‘545 Patent”) and
6,568,969 (“the ‘969 Patent”), including claims 13, 15,
17, 19, 25, and 30 of the ‘545 Patent as well as claims
15, 16, 17, and 19 of the ‘969 Patent. See id. at 1-2. The
jury further held that BRP failed to prove its invalidity
defenses
of
anticipation,
obviousness,
and
enablement. Id. at 2-3. As to damages, the jury
identified October 16, 2008, as the proper starting
date, and $102.54 as the reasonable royalty per unit
sold to which Arctic Act is entitled. The parties
stipulated to the number of units sold since October
16, 2008, to wit, 151,790. See ECF No. [149] (trial
minutes, May 31, 2016).

1 The Court has considered, inter alia, argument as to enhanced
damages contained within briefing on other pending post-trial
motions, as requested by the parties. See, e.g., ECF No. [172]
(“Reply”) at 8.

App-97
Moreover, the jury found, by clear and convincing
evidence, that BRP infringed the above-listed claims
“with reckless disregard of whether such claim was
infringed or was invalid or unenforceable,” entitling
Arctic Cat to treble damages. Verdict at 4. The issue
of subjective willfulness reached the jury after the
Court found objective willfulness by clear and
convincing evidence, pursuant to the two-part Seagate
test, in its Order Denying Judgment as a Matter of
Law, ECF No. [148] (“Order Denying JMOL”) (citing
In re Seagate Tech., LLC, 497 F.3d 1360, 1371 (Fed.
Cir. 2007)). Under the first, objective prong of this test,
a patent owner must “show by clear and convincing
evidence that the infringer acted despite an objectively
high likelihood that its actions constituted
infringement of a valid patent.” Seagate, 497 F.3d at
1371. Under the second, subjective prong, the
patentee must demonstrate, also by clear and
convincing evidence, that the risk of infringement
“was either known or so obvious that it should have
been known to the accused infringer.” Id. 2
Coincidentally, the Supreme Court issued a ruling
shortly after the conclusion of trial that, inter alia,
discarded the Seagate test for willfulness as
inconsistent with Section 284 of the Patent Act. See
Halo Elecs., Inc. v. Pulse Elecs., Inc., 136 S. Ct. 1923,
1923 (2016) (citing 35 U.S.C. § 284). Halo held that
“an independent showing of objective recklessness
should [not] be a prerequisite to enhanced damages”
and that a determination as to enhancement should be
2 Any consideration of the Seagate test was limited to the
Court’s Order Denying JMOL, and oral argument on the same—
and did not affect any other aspect of the trial in this case.

App-98
governed by a preponderance of the evidence
standard. 136 S. Ct. at 1925. Moreover, it concluded
that enhancement of damages should be governed by
a preponderance of the evidence standard that “has
always” governed all other aspects of patentinfringement litigation. Id. This decision, importantly,
did not impact the validity of the Judgment because,
as the Court explained, “where both objective
willfulness and subjective willfulness were found by
clear and convincing evidence, a more lenient inquiry
as to subjective willfulness, without the additional
hurdle imposed by the objective willfulness inquiry,
and by the lesser preponderance of the evidence
standard, would reach the same result.” Judgment at
3. Pursuant to the applicable law, including the
issuance of Halo, the Court held that the Verdict
entitled Arctic Cat to the trebling of damages and,
thus, directed judgment against BRP and in favor of
the Plaintiff for $46,693,639.80, and any applicable
interest.
BRP identifies no procedural basis for its Motion
under the Federal Rules of Civil Procedure, which
would inform the Court’s standard of review.
Regardless, it asks the Court to vacate the instant
Judgment, suggesting that the enhancement of
damages under 35 U.S.C. § 284 was improper.
Accordingly, the Court takes this opportunity to
examine the relevant law, including the Supreme
Court’s recent decision in Halo, entered on the same
day as the Court’s Judgment 3—and, thus, to ensure
3 The Court’s Final Judgment was entered on June 13, 2016,
and issued on the case docket on June 14, 2016.

App-99
that the Court’s decision in which it trebled damages
comports with the Supreme Court’s new guidance.
II. Authority
Section 284 of the Patent Act provides that, in a
case of infringement, courts “may increase the
damages up to three times the amount found or
assessed.” 35 U.S.C. § 284. In 2007, the Federal
Circuit adopted the two-part Seagate test for
determining when a district court may increase
damages pursuant to § 284. 4 But, as noted, the
Supreme Court rejected the Seagate test in Halo as
“unduly rigid” and held that, instead, “district courts
[should] exercise their discretion” as provided in § 284
to determine whether to award enhanced damages.
136 S. Ct. at 1933-34 (“Section 284 permits district
courts to exercise their discretion in a manner free
from the inelastic constraints of the Seagate test.”).
Accordingly, “[t]he subjective willfulness of a patent
infringer, intentional or knowing, may warrant
enhanced damages, without regard to whether his
infringement was objectively reckless.” Id. at *8; see
SOCIEDAD ESPANOLA DE ELECTROMEDICINA Y
CALIDAD, S.A., v. BLUE RIDGE X-RAY CO., INC.,
DRGERM USA, INC., & DRGEM CORP., No. 1:10CV-00159-MR, 2016 WL 3661784, at *2 (W.D.N.C.
Before Seagate, determining whether to award enhanced
damages was a two-step process in which a jury’s finding of
willfulness satisfied the first step. See Transclean Corp. v.
Bridgewood Services, Inc., 290 F.3d 1364, 1377 (Fed. Cir. 2002).
“For the second step, the Court exercise[d] its discretion whether
to increase damages.” Itron, Inc. v. Benghiat, No. CIV.99501(JRT/FLN), 2003 WL 21402608, at *7 (D. Minn. June 16,
2003).
4

App-100
July 8, 2016) (“Thus, in Halo, the Supreme Court []
overruled the objective prong of Seagate, leaving the
issue of willfulness as solely a factual issue which can
readily be addressed by a jury.”). 5 Additionally, as
explained in the Final Judgment, Halo “disavowed the
burden of proof prescribed by Seagate and opted for
the lesser preponderance of the evidence standard for
a patentee to prove an alleged infringer’s
recklessness.” PPC Broadband, Inc. v. Corning
Optical Commc’ns RF, LLC, -- F. Supp. 3d --, 2016 WL
3365437, at *5 (N.D.N.Y. June 16, 2016) (citing id. at
*9).
Enhanced damages “are not to be meted out in a
typical infringement case, but are instead designed as
a ‘punitive’ or ‘vindictive’ sanction for egregious
behavior. The sort of conduct warranting enhanced
damages has been variously described in our cases as
willful, wanton, malicious, bad-faith, deliberate,
consciously
wrongful,
flagrant,
or—indeed—
characteristic of a pirate.” Halo, 136 S. Ct. at 1932. 6
“[A]lthough there is ‘no precise rule or formula’ for
awarding damages under § 284, a district court’s
‘discretion should be exercised in light of the
considerations’ underlying the grant of that
Defendant incorrectly argues that Halo holds “that the jury
has no role in determining willfulness.” Reply at 3.
5

Although it is true that, 180 years ago, “Congress did away
with automatic trebling of damages,” BRP fails to acknowledge
that this was for simple infringement, without regard to willful
infringement. As Halo recounted, the Supreme Court “explained
[in 1854] that the change was prompted by the ‘injustice’ of
subjecting a ‘defendant who acted in ignorance or good faith’ to
the same treatment as the ‘wanton and malicious pirate.’” Halo
at *3 (citing Seymour v. McCormick, 16 How. 480, 488 (1854)).
6

App-101
discretion.” Halo, 136 S. Ct. at 1932 (citations
omitted). That is, “[a]s with any exercise of discretion,
courts should . . . take into account the particular
circumstances of each case in deciding whether to
award damages, and in what amount . . . [and] ‘be
guided by [the] sound legal principles’ developed over
nearly two centuries of application and interpretation
of the Patent Act.” Halo, 136 S. Ct. at 1933, 1935
(quoting Martin v. Franklin Capital Corp., 546 U.S.
132, 139 (2005)). 7
III. Discussion
The narrow question before the Court is whether
the trebling of damages was proper. Contrary to
Defendant’s argument that “the Court indicated a
perceived requirement to automatically treble the
damages in its Final Judgment,” treble damages were
awarded
after
comprehensive—perhaps,
painstakingly so—consideration of the particular
circumstances of this case in the resolution of multiple
Daubert motions, a summary judgment motion,
involving nearly three hours of oral argument, a
motion for judgment as a matter of law, and a ten-day
trial, after which the jury found willful infringement.
Indeed, the Court has now reviewed the full factual
record in this case, and evaluated arguments from
both parties, on at least three separate occasions. The
evidence established that BRP’s conduct was so
unreasonable as to warrant a finding of “objective
recklessness” under Seagate—a legal standard that
Halo rejected for the very reason that it made it too
7 Halo also establishes that the Federal Circuit will review
enhanced damages awards for abuse of discretion. Id. at *10.

App-102
difficult for patent holders to find redress for acts of
intentional infringement, and overly constrained
district courts from exercising their discretion to
punish willful patent infringers under 35 U.S.C. § 284.
See Halo, 136 S. Ct. at 1933 (“The Seagate test
aggravates the problem by making dispositive the
ability of the infringer to muster a reasonable (even
though unsuccessful) defense at the infringement
trial. The existence of such a defense insulates the
infringer from enhanced damages, even if he did not
act on the basis of the defense.”); ECF No. [148] (Order
Denying Judgment as a Matter of Law, or “Order
Denying JMOL”).
As a result, the argument that BRP has not had a
chance to weigh in on the instant issue rings hollow.
Furthermore, the enhancement of damages, which
followed and specifically accounted for the decision in
Halo, was neither automatic nor unprompted. See
Judgment at 2 (citing 35 U.S.C. § 284 (“[C]ourts ‘may
increase the damages up to three times the amount
found or assessed.’”) (emphasis added)). Indeed, the
Court is aware of no authority in connection with
either 35 U.S.C. § 284 or the Federal Rules of Civil
Procedure that requires that the Court consider posttrial briefing before awarding enhanced damages, 8
Similarly, BRP’s briefing suggests that Arctic Cat was
required to overcome an additional hurdle—above willfulness—
in order to carry its burden in demonstrating that enhancement
of damages was warranted. ECF No. [175] (BRP Response) (“As
the Supreme Court noted in Halo, enhanced damages are
reserved for conduct that is ‘willful, wanton, malicious, bad-faith,
deliberate, consciously wrongful, flagrant, or—indeed—
characteristic of a pirate.’ Arctic Cat has not made that showing
here.”) (citing Halo). This simply is a misstatement of the law, as
8

App-103
and BRP has cited no authority requiring as much.
Once willful infringement is found, the question of
enhancement is firmly committed to the sound
discretion of the district court. See Halo, 136 S. Ct. at
1931 (quoting Martin, 546 U.S. at 136) (“That
language [in § 284] contains no explicit limit or
condition, and we have emphasized that the word
‘may’ clearly connotes discretion.”) (internal quotation
marks omitted); see also Jurgens v. CBK, Ltd., 80 F.3d
1566, 1570 (Fed. Cir. 1996) (explaining that, once the
fact-finder determines that an infringer is “guilty of
conduct upon which increased damages may be
based[,] . . . the court then determines, exercising its
sound discretion, whether, and to what extent, to
increase the damages award given the totality of the
circumstances”). Where, as here, the Court carefully
considered the record evidence and details its reasons
for enhancement, its determination regarding
enhancement is appropriate. See Order Denying
JMOL.
Specifically, the Court made the following factual
findings and conclusions of law in its Order Denying
JMOL:
Here, testimony has been presented
conclusively demonstrating that BRP’s agent,
Mr. Goudrault of BRP’s IP Department, knew
about the subject patents before they issued.
discussed infra. Instead, Halo carefully distinguished between a
“defendant who acted in ignorance or good faith”—i.e., not
willful—and a “wanton and malicious pirate”—i.e., willful. This
is not to say that willfulness requires the automatic trebling of
damages, but only to emphasize Defendant’s faulty framing of the
same.

App-104
See State Industries, Inc. v. A.O. Smith Corp.,
751 F.2d 1226, 1236 (Fed. Cir. 1985) (“To
willfully infringe a patent, the patent must
exist and one must have knowledge of it.”).
Mr. Daujenais and Mr. Goudrault confirmed
that fact. Indeed, Mr. Goudrault stated at
trial that he made a note in his file to
reexamine the patent after its issuance. See
id. Furthermore, Mr. Goudrault[‘s] only
analysis of the patent—on which BRP
exclusively
relied—consisted
of
one
conclusory sentence on a page of handwritten
notes. The witness, himself, testified that he
would not provide such an opinion to one of
his clients today. Even if a larger file existed
that has gone missing in the years since he
conducted his analysis, importantly, Mr.
Goudrault is not an attorney. Thus, whatever
the quality of his work, BRP cannot legally
rely on him to establish the advice of counsel
defense. So, despite specifically noting the
relevance of Arctic Cat’s patent application,
BRP chose not to seek advice of qualified and
competent counsel until much later, after
unsuccessfully attempting to purchase Arctic
Cat’s patents through a third party. In
Creative, the defendant sought advice of
counsel before it engaged in potentially
infringing activities. Here, by contrast, by the
time that BRP got around to getting any sort
of opinion from Mr. Marcus, BRP had known
about the patents already for eight years.
Testimony has established that BRP had
been selling potentially infringing products

App-105
across their entire product line for at least a
half a decade. . . .
[C]ases that have found no willfulness despite
no advice of counsel have involved much
stronger facts than those present in this
action, such as where the [Court] finds weak
evidence of infringement altogether. . . .
[I]n contrast [to Eastman Kodak], BRP
attempted to purchase the Arctic Cat patents,
rather than planning in good faith to design
around them. When those efforts were
unsuccessful, BRP recommenced production
of the very models for which they had
expressed concern regarding potential
infringement—and then sought advice of
counsel as to non-infringement years after
learning about the patents. It was objectively
reckless for BRP to rely on an infringement
defense where its own experts had already
concluded a likelihood of infringement.
BRP’s last contention is its invalidity defense.
However, this defense depends upon prior art
that was squarely before the Patent and
Trademark Office when the Office decided to
issue the ‘545 and ‘969 Patents. Although
perhaps not dispositive, the Court cannot find
that it was objectively reasonable for BRP to
rely on obviousness as a theory of invalidity
where the USPTO specifically drew the
opposite conclusion—finding that the patent
claims were not so obvious as to preclude the
issuance of the patents. In light of the
foregoing, the Court holds that BRP acted

App-106
despite an objectively
infringement.

high

risk

of

Id. at 10 (citing Creative Compounds, LLC v.
Starmark Laboratories, Inc., No. 07-22814-CIV, 2010
WL 2757196, *5 (S.D. Fla. 2010)); Eastman Kodak Co.
v. Agfa-Gevaert N.V., 560 F. Supp. 2d 227, 301-05
(W.D.N.Y. 2008), judgment entered, 2008 WL 5115252
(W.D.N.Y. 2008) and aff’d, 351 F. App’x 441 (Fed. Cir.
2009)). 9
It was specifically pursuant to this analysis, as
well as the Jury Verdict finding willful infringement
and the guidance provided by Halo as to willfulness
and enhancement of damages, that the Final
Judgment was entered. The Court ultimately decided
that any further briefing, where the evidence was so
In a concurrence to the majority opinion, Justice Breyer,
joined by Justice Kennedy and Justice Alito, wrote separately to
express “limits” imposed by section 284 “that help produce
uniformity in its application and maintain its consistency with
the basic objectives of patent law.” Id. at 1936 (citing U.S. Const.,
Art. I, § 8, cl. 8). Therein, he counsels against a bright line rule
in which failure of an infringer to obtain advice of counsel is used
as proof of willful infringement. Id. Explaining this reasoning,
the concurrence posits that legal costs “can prevent an innovator
from getting a small business up and running. At the same time,
an owner of a small firm, or a scientist, engineer, or technician
working there, might, without being ‘wanton’ or ‘reckless’
reasonably determine that its product does not infringe a
particular patent, or that the patent is probably invalid.” Id.
(citing Association for Molecular Pathology v. Myriad Genetics,
Inc., 569 U.S. ––, ––, 133 S. Ct. 2107, 2117 (2013). Needless to
say, this analysis does not come into play here, as the fact that
Mr. Goudrault is not an attorney is only one of many problems
with BRP’s proffered defenses—and, certainly, a large market
leader like BRP cannot rely on this concurrence to claim in good
faith that legal costs imposed too great a burden in this instance.
9

App-107
clear and overwhelming, would only serve to delay
resolution of this case—which had already been
pending for nearly twenty-one months. See Fed. R.
Civ. P. 58(b)(2) (“[T]he court must promptly approve
[and enter] the judgment.”).
An enhancement of damages often follows a
finding of willful infringement. In fact, the Federal
Circuit has instructed that, upon such a finding,
“courts should provide reasons for not increasing a
damages award” under § 284. Jurgens, 80 F.3d at 1572
(holding that, in light of the jury’s findings of willful
infringement, trial court abused its discretion in
refusing to enhance damages without an explanation
of any proper mitigating factors) (emphasis added); see
also Whitserve, LLC v. Computer Packages, Inc., 694
F.3d 10, 37 (Fed. Cir. 2012) (“[T]rial court abused its
discretion in denying the motion for enhanced
damages
without
independent
justification.”);
Carnegie Mellon Univ. v. Marvell Tech. Group, Ltd., -F. Supp. 3d --, 2014 WL 1320154, at *9 (W.D. Pa. Mar.
31, 2014) (“To be clear, a finding of willful
infringement does not necessitate the imposition of
enhanced damages; however, after such a finding is
made, the Court must explain its reasons for declining
to award enhanced damages.”), rev’d on other grounds,
807 F. 3d 1283 (Fed. Cir. 2015). BRP’s own cited
authorities establish as much. For example, in Modine
Mfg. Co. v. Allen Group, Inc., 917 F.2d 538 (Fed. Cir.
1990), the Federal Circuit affirmed a district court
opinion for no enhancement of damages, because “[it]
demonstrated that [the court] carefully considered the
finding of willful infringement in light of the deterrent
function of enhanced damages in reaching [its]
determination that enhanced damages were not

App-108
appropriate to this particular case.” Id. at 543 (finding
that plaintiff “utterly failed to demonstrate that this
determination was an abuse of discretion”). And,
importantly, there, unlike here, the court found that
“willfulness was sufficiently close on the evidence.” Id.
Although not mentioned in Halo, the Federal
Circuit provided a list of nonexclusive factors to assist
in this discretionary determination in Read Corp. v.
Portec Inc., 970 F.2d 816 (Fed. Cir. 1992)—ultimately,
however, the decision hinges on “the egregiousness of
the defendant’s conduct based on all the facts and
circumstances.” Id. at 826-27 (including: (1) whether
the infringer deliberately copied the ideas or design of
another; (2) whether the infringer, when he knew of
the other’s patent protection, investigated the scope of
the patent and formed a good-faith belief that it was
invalid or that it was not infringed; (3) the infringer’s
behavior as a party to the litigation; (4) the
defendant’s size and financial condition; (5) closeness
of the case; (6) duration of defendant’s misconduct;
(7) remedial action by the defendant; (8) defendant’s
motivation for harm; and (9) whether defendant
attempted to conceal its misconduct). Nonetheless,
examination of the Read factors—particularly, factors
1, 2, 4, 5, 6, 7, and 9—strongly supports enhancement
of damages in this case.
The first Read factor, whether the infringer
deliberately copied the ideas or design of another,
weighs in favor of enhancement. See Read, 970 F.2d at
827, n. 7 (instructing that, in this context, “‘ideas’ and
‘design’ would encompass, for example, copying the
commercial embodiment, not merely the elements of a
patent claim”). At trial, it was established that BRP’s

App-109
Fernando Garcia attended a demonstration of Arctic
Cat’s off-throttle steering technology in Lake
Hamilton, Florida, in March 2000, where he was able
to test Arctic Cat’s actual prototype. BRP’s Director of
Engineering, Renald Plante, testified that Garcia
thought that the prototype “worked well, but on my
side, you know, we—or rather, I compared the system
that we were developing, the OPAS system that we
were developing, to the Arctic Cat system and we
decided to keep our OPAS [off-power] system and just
stop the negotiations with Arctic Cat.” ECF No. [1821] (May 17, 2016, Trial Transcript) at 189:9-190:15.
This meeting was approximately four years before
BRP began infringing the Arctic Cat patents in 2004—
after, evidence has shown, BRP abandoned its own
prototype attempting to combine BRP’s jet boat
technology with a PWC. See ECF No. [182-9] (May 31,
2015, Trial Transcript) at 187:23-188:7 (“So Proto-14,
as you’ve heard testified about, was basically an
application of the jet boat to—technology to a PWC.
And it was tried and it basically reached a dead end
and they went a different way.”). “That [BRP]
developed a very similar system under these
circumstances is strong evidence of copying and favors
enhancing damages.” Georgetown Rail Equip. Co. v.
Holland L.P., No. 6:13-CV-366, 2016 WL 3346084, at
*17 (E.D. Tex. June 16, 2016).
As to Read factor 2, BRP continues to argue that,
as soon as it became aware of Arctic Cat’s prototype
and patent application, it developed a good-faith belief
that the patents were invalid based upon BRP’s jet
boat prior art. However, the trial testimony
established exactly the opposite—that is, that BRP
failed to properly investigate the scope of the patents

App-110
and form a good-faith belief that the patents were
invalid and/or not infringed. See Order Denying JMOL
at 5-10; Jury Verdict; see also ECF No. [171] (“Boebel
Decl.” with Exs. 1-12 attached thereto), Ex. 4 (May 18,
2016, Trial Transcript) at 46:6-17 (J. Daunais)
(testifying that Defendants knew of the ‘545 and ‘969
patents each within about a month after they issued),
at 47:5-12, 97:4-9, 102:15-17 (BRP retained lawyer R.
Laurie to try to buy the ‘545 and ‘969 patents
anonymously “just hoping that [Arctic Cat] didn’t care
about the patents anymore”), Ex. 5 (May 23, 2016,
Trial Transcript) at 45:15-46:9 (D. Goudreault was a
patent agent who “investigated” the patents
acknowledging that, by law, he is not permitted to give
an opinion on patent infringement or validity), at 53:854:21, 59:4-21, 67:20-68:9 (acknowledging that the art
on which BRP relied was cited on the face of the ‘969
and ‘545 patents, and that this meant that the
examiner considered that art and concluded that the
patents-in-suit were new and different from anything
disclosed therein), Ex. 6 (BRP Trial Ex. 74) at
BRP133512 & 514 (reflecting brief analysis of ‘545 and
‘969 patents); Exs. 7, 8 (BRP Trial Exs. 55, 56) (legal
opinion letters not obtained until seven years and
eleven years after first infringement, respectively).
Indeed, it is disingenuous at best for BRP to claim that
it subscribed to the good-faith belief that the patents
were invalid where, despite “kn[owing] of both patents
within a month or so of their issuance,” ECF No. [1611] (May 18, 2016, Trial Transcript) at 46:9-17, no BRP
employee even took the time to review the 31 claims
in the issued ‘545 patent. Boebel Decl., Ex. 5 at 52:2453:7, 63:3-64:11 (BRP patent agent Goudreault
admitting that he reviewed the five claims of the

App-111
published application for the ‘545 patent, but not the
31 claims that ultimately issued). Moreover, BRP’s
notes on the parties’ Hamilton meeting, introduced at
trial, reflect that Garcia did not assert that any
patents were invalid, but instead “asked about our
patent and how it would differ from [BRP’s] jetboat
system.” ECF No. [182-15] at AC00008617. Arctic
Cat “said [that the] Patent Office would decide.” Id.
And the Patent Office did decide—when it issued the
claims of the ‘969 and ‘545 patents with undisputed
knowledge of the much-discussed Rheault patent (one
of the patents on BRP’s jet boat technology), which
was cited on the face of the ‘545 and ‘969 patents. See,
e.g., ECF No. [119] (Order Denying Summary
Judgment) at 34.
Similarly far-fetched is Arctic Cat’s argument,
under Read factor 3, that BRP’s behavior in
announcing its intention to appeal the Verdict was
unprofessional. BRP certainly did not engage in
litigation misconduct, that is, “bringing vexatious or
unjustified suits, discovery abuses, failure to obey
orders of the court, . . . acts that unnecessarily prolong
litigation,” or violations of court orders by counsel. i4i
Ltd. P’ship v. Microsoft Corp., 598 F.3d 831, 859 (Fed
Cir. 2010). In fact, the Court complimented the
conduct of the parties’ respective attorneys
throughout the case. See, e.g., Reply at 8 (citing June
1, 2016, Trial Transcript) at 169:21-25 (referring to
counsel as “extremely talented and superb trial
attorneys”). Accordingly, this factor weighs in favor of
no enhancement. See On Demand Mach. Corp. v.
Ingram Indus., Inc., No. 4:01CV1668MLM, at *17
(E.D. Mo. July 23, 2004) (finding that factor 3 weighed

App-112
against enhancement where each side conducted
themselves with civility before and during trial).
On the other hand, BRP’s size and financial
condition—Read factor 4—support the Court’s
decision to treble damages. The Defendant is a market
leader in personal watercraft and continues to grow.
See, e.g., Boebel Decl., Ex. 9 (May 25, 2016, Trial
Transcript) at 149:20-22 (stating that BRP is the
market leader “[f]or sure”), Ex. 10 (BRP 2016 Annual
Review) at 10-11. Its personal watercraft division,
Sea-Doo, ended the 2015 season setting a new market
share record and appears to be gaining momentum.
See Boebel Decl., Ex. 10 at 10. BRP boasts that the
Sea-Doo Spark—the very PWC that the jury found to
infringe Arctic Cat’s patents— “is a prime example [of
BRP’s growth strategy] as we can directly tie the
industry’s 26% growth worldwide to its introduction in
2013.” Id. at 11. In North America, retail sales of the
Spark units increased by 40% in fiscal year 2016,
while the industry itself increased by only 10%. Id.
(“What’s more, this increase did not come at the
expense of our other ‘traditional’ PWC models.”).
Additionally, BRP’s global sales for its “Seasonal
Products” division alone was up 6.1% over the
previous year at over $1.3 billion. Id.
According to BRP’s 2016 Annual Review, in fiscal
year 2016, the Defendant’s sales reached the $3.8
billion mark. Id. at 2. For the three-month period
ending April 30, 2016, BRP revenues increased by
$31.8 million, or 3.5%, to $929.9 million. Boebel Decl.,
Ex. 1 (Press Release: BRP Reports Fiscal Year 2017—
First-Quarter Results, June 9, 2016) at 2. Revenues of
Seasonal Products for that same three-month period

App-113
increased by $15.6 million, or 5.8%. Id. at 3. BRP
reported that “[t]he increase resulted primarily from a
higher volume and a favourable mix of PWC sold and
from a favourable foreign exchange rate variation of
$12 million.” Id. While gross profit margins decreased
in this period, the decrease attributed was primarily
due to higher sales programs in snowmobiles and
unfavourable foreign exchange variation, partially
offset by favourable product mix in PWC[.]” Id. at 4
(emphasis added). According to BRP President and
CEO, Jose Boisjoli, BRP “significantly outpaced the
industry” and is “currently in an excellent position[.]”
Id. at 2.
Though Arctic Cat is not a small mom-and-pop
shop by any stretch, 10 it is a fraction of BRP’s size and
the smallest company in the markets where the two
compete. See Boebel Decl., Ex. 11 (May 17, 2016, Trial
Transcript) at 91:12-24 (M. Okerlund) (“Of the
companies that I’ve mentioned, Arctic Cat is by far the
smallest company. By comparison, Polaris, which is
also a Minnesota-based company, is I think about a
five billion dollar company. BRP is a billion, multibillion dollar company. Arctic Cat’s a small fraction of
their size.”); Reply at 10. Where, as here, BRP is a
multi-billion dollar enterprise and the market
leader—due in significant part to sales of products
found to willfully infringe Arctic Cat’s patents—
enhancement of damages is particularly warranted.
10 Arctic Cat is a publicly-traded company with total net sales
in 2015 of over $698 million. See Arctic Cat Inc. Form 10-K,
Securities & Exchange Commission (May 27, 2016), at 16,
available at: http://phx.corporate-ir.net/phoenix.zhtml?c=97941
&p=irol-reportsannual.

App-114
See St. Regis Paper Co. v. Winchester Carton Corp.,
410 F. Supp. 1304, 1309 (D. Mass. 1976) (awarding
“double damages,” with the caveat that, “[i]f defendant
were the giant and plaintiff the small independent, I
would make it treble”); Lightwave Technologies, Inc. v.
Corning Glass Works, 19 U.S. P.Q. 2d 1838, 1848-49
(S.D.N.Y. 1991) (increasing damages based on
infringer’s culpability and appropriate compensation
to patentee, but awarding double damages because
infringer could not afford treble).
Moreover, pursuant to Read factor 5, this case
was not a close one. As noted in analysis of Read factor
2, the trial testimony established that BRP failed to
properly investigate the scope of the patents and form
a good-faith belief that the patents were invalid and/or
not infringed. Pursuant to these facts, the case was not
close—as demonstrated by the fact that the Court and
jury found clear and convincing evidence of willful
infringement under the stringent objective/subjective
test of Seagate. Accordingly, this factor provides more
support for enhancement of damages. Cf. Crucible,
Inc. v. Stora Kopparbergs Bergslags AB, 701 F. Supp.
1157, 1164 (W.D. Pa. 1988) (“[B]ecause the court still
considers the [willfulness] question to be a close
one . . . double, and not treble damages are
appropriate.”).
The duration of BRP’s misconduct, that is, Read
factor 6, also supports the enhancement of the jury’s
damages award. BRP began infringing the Arctic Cat
patents in 2004. After discontinuing the original
infringing product line—the 3D personal watercraft—
BRP launched an all-new product platform using the
infringing technology in 2009. BRP included the

App-115
infringing OTAS system in its PWC in 2009 and
expanded that use over the next four years, such that
all BRP PWCs sold since 2013 include the technology
that the jury in this case found to willfully infringe
Arctic Cat’s patents. To be sure, as BRP argues, if
Arctic Cat had brought this suit earlier, then the
period of infringement would have been shorter. See
Reply at 9. However, this repurposed laches argument
invoked by BRP is a red herring. Any delay by Arctic
Cat—and the Court has already determined on two
occasions that the delay in this case is insufficient to
support a laches defense—was not the cause of BRP’s
infringement. BRP is responsible for its own actions.
BRP has never engaged in remedial action either,
going to Read factor 7, such as approaching Arctic Cat
about a license or attempting in good faith to design
around Arctic Cat’s patents. As this Court found, “by
the time that BRP got around to getting any sort of
opinion from Mr. Marcus, BRP had known about the
patents already for eight years. Testimony has
established that BRP had been selling potentially
infringing products across their entire product line for
at least a half a decade.” Order Denying JMOL at 9.
To address its concerns about infringement, BRP tried
to covertly buy the patents “rather than planning in
good faith to design around them.” Id. at 10. BRP
likewise did not voluntarily cease making or selling
the infringing products at any point or take steps to
implement a non-infringing alternative. Cf. Intra
Corp. v. Hamar Laser Instruments, Inc., 662 F. Supp.
1420, 1439 (E.D. Mich. 1987) (damages only doubled
because defendant “voluntarily ceased manufacture
and sale of infringing systems during the pendency of

App-116
this litigation”), aff’d without opinion, 862 F.2d 320
(Fed. Cir. 1988), cert. denied, 490 U.S. 1021 (1989).
The Defendant’s motivation for harm, pursuant to
Read factor 8, is neutral in this analysis as the
evidence is inconclusive. Although BRP’s conduct was
egregious in numerous respects, Arctic Cat has failed
to show that BRP’s infringement was motivated by a
desire to harm Arctic Cat, at least beyond the
Defendant’s secretive attempt to purchase Arctic Cat’s
patents. As a result, factor 8 does not weigh
significantly in either direction and, thus, does not
impact the instant determination.
BRP’s attempt to conceal its misconduct, however,
does support enhancement of damages pursuant to
Read factor 9. At trial, evidence was adduced that BRP
hired “a guy named Ron Laurie” in 2011 to try to buy
the patents from Arctic Cat, because the Defendant
was “worried that after reviewing the patents Arctic
Cat would file a lawsuit against BRP for
infringement.” ECF No. [161-1] (May 18, 2016, Trial
Transcript) at 47:5-18, 97:10-14. The Defendant
offered $40,000 initially, which amount was
“subsequently raised that to $60,000. And it didn’t
work.” Id. at 102:13-14. So, instead, BRP resorted to
hoping that Arctic Cat “didn’t care about these patents
anymore” and, therefore, would let them expire. Id. at
102:8-10, 15-17 (“A. Well, also we were thinking that
they could even let them all go expire. But it was not
happening yet. So that’s why we wanted to get a shot
at buying them. . . . Q. So is it fair to say you were just
hoping they didn’t care about these patents anymore?
A. That’s what we were hoping.”). In contrast, the jury
was introduced at trial to a third-party company in the

App-117
PWC industry, Honda, which addressed the same
conundrum in an entirely different manner. Rather
than attempt any sleight of hand, Honda entered into
a licensing agreement with Arctic Cat when it feared
that its products might infringe the Plaintiff’s patents.
Particularly in light of this comparison, BRP’s
behavior strongly suggests a lack of transparency and
good faith that weighs in favor of enhanced damages.
Ultimately, Read factors 1, 2, 4, 5, 6, 7, and 9
compellingly support the Court’s decision to treble
damages. 11 Though Read factor 3 cuts the other way,
an argument that no enhancement is warranted based
on factor 3 alone—particularly, as it concerns conduct
during the litigation, rather than during the period of
underlying infringement—is entirely unconvincing. In
this case, “the egregiousness of the defendant’s
conduct based on all the facts and circumstances”
overwhelmingly supports enhancement of damages.
Read, 970 F.2d at 826-27. “The evidence at trial
revealed a degree of dismissiveness of [Plaintiff’s]
Arctic Cat urges the Court to consider in its analysis under
the Read factors the alleged fact that BRP continues to infringe
the subject patents. See ECF No. [170] (Response) at 13 (“In 2014,
after this suit was filed, BRP continued to infringe; in fact, it
expanded its infringing use with the new Spark line of products.
And even now—after the jury verdict—BRP continues to trample
on Arctic Cat’s patent rights.”). However, this is the first time
that the Court has heard such allegations—after the conclusion
of trial, when the case has been pending for almost twenty-one
months. Before trial, the parties expressly stipulated to the
number of infringing products at issue in this case since October
16, 2008. See ECF No. [149] (trial minutes, May 31, 2016).
Accordingly, Arctic Cat’s belated attempt to abandon this
stipulation, on which the Court and the parties relied, is not welltaken.
11

App-118
patent rights and disrespect of the value the law
places on protection of intellectual property that was
exceptional. Enhanced damages are merited to punish
this conduct and deter similar behavior, and to
promote appropriate regard for patent rights.”
Applera Corp. v. MJ Research Inc., 372 F. Supp. 2d
233, 247 (D. Conn. 2005).
IV. Conclusion

Trial in this case has established by clear and
convincing evidence—a higher standard than is now
applicable to a willfulness inquiry under Halo—that
BRP willfully infringed Arctic Cat’s patented offthrottle steering technology in contravention of the
United States Patent Act. It did so with full knowledge
of Arctic Cat’s patent rights, without so much as
approaching Arctic Cat about a license, as is
demonstrated by, inter alia, its hiring of an agent to
surreptitiously buy Arctic Cat’s patents without
disclosing BRP as the intended buyer. Suffice it to say,
BRP is the wanton infringer that the Supreme Court
sought to punish through its relaxation of the
standard governing willfulness and enhancement of
damages. Halo, 136 S. Ct. at 1933-34 (“Section 284
permits district courts to exercise their discretion in a
manner free from the inelastic constraints of the
Seagate test. Consistent with nearly two centuries of
enhanced damages under patent law, however, such
punishment should generally be reserved for
egregious cases typified by willful misconduct.”). It is
therefore ORDERED AND ADJUDGED that
Defendant’s Motion, ECF No. [158], is DENIED. The
Court will address the parties’ other post-trial motions
by separate order.

App-119
DONE AND ORDERED in Miami, Florida, this
27th day of July, 2016.
[handwritten: signature]
BETH BLOOM
UNITED STATES
DISTRICT JUDGE

App-120
Appendix F
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________
No. 19-1080
________________
ARCTIC CAT INC.,
v.

Plaintiff-Appellant,

BOMBARDIER RECREATIONAL PRODUCTS INC.,
BRP U.S. INC.,
Defendants-Appellees.
________________
Filed: Apr. 20, 2020
________________
Before: PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL,
Circuit Judges.
________________
ORDER
________________
PER CURIAM.
Appellant Arctic Cat Inc. filed a petition for
rehearing en banc. The petition was first referred as a
petition for rehearing to the panel that heard the
appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.

App-121
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on April
27, 2020.
FOR THE COURT
April 20, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App-122
Appendix G
RELEVANT STATUTORY PROVISION
35 U.S.C. § 287. Limitation on damages and
other remedies; marking and notice
(a) Patentees, and persons making, offering for sale,
or selling within the United States any patented
article for or under them, or importing any patented
article into the United States, may give notice to the
public that the same is patented, either by fixing
thereon the word “patent” or the abbreviation “pat.”,
together with the number of the patent, or by fixing
thereon the word “patent” or the abbreviation “pat.”
together with an address of a posting on the Internet,
accessible to the public without charge for accessing
the address, that associates the patented article with
the number of the patent, or when, from the character
of the article, this can not be done, by fixing to it, or to
the package wherein one or more of them is contained,
a label containing a like notice. In the event of failure
so to mark, no damages shall be recovered by the
patentee in any action for infringement, except on
proof that the infringer was notified of the
infringement and continued to infringe thereafter, in
which event damages may be recovered only for
infringement occurring after such notice. Filing of an
action for infringement shall constitute such notice.
(b)(1)
An infringer under section 271(g) shall be
subject to all the provisions of this title relating to
damages and injunctions except to the extent
those remedies are modified by this subsection or
section 9006 of the Process Patent Amendments
Act of 1988. The modifications of remedies

App-123
provided in this subsection shall not be available
to any person who(A) practiced the patented process;
(B) owns or controls, or is owned or
controlled by, the person who practiced the
patented process; or
(C) had knowledge before the infringement
that a patented process was used to make the
product the importation, use, offer for sale, or
sale of which constitutes the infringement.
(2) No remedies for infringement under section
271(g) shall be available with respect to any
product in the possession of, or in transit to, the
person subject to liability under such section
before that person had notice of infringement with
respect to that product. The person subject to
liability shall bear the burden of proving any such
possession or transit.
(3)(A) In making a determination with respect
to the remedy in an action brought for
infringement under section 271(g), the court
shall consider(i) the good faith demonstrated by the
defendant with respect to a request for
disclosure,
(ii) the good faith demonstrated by the
plaintiff with respect to a request for
disclosure, and
(iii) the need to restore the exclusive
rights secured by the patent.

App-124
(B) For purposes of subparagraph (A), the
following are evidence of good faith:
(i) a request for disclosure made by the
defendant;
(ii) a response within a reasonable time
by the person receiving the request for
disclosure; and
(iii) the submission of the response by the
defendant to the manufacturer, or if the
manufacturer is not known, to the
supplier, of the product to be purchased
by the defendant, together with a request
for a written statement that the process
claimed in any patent disclosed in the
response is not used to produce such
product.
The failure to perform any acts described in the
preceding sentence is evidence of absence of good faith
unless there are mitigating circumstances. Mitigating
circumstances include the case in which, due to the
nature of the product, the number of sources for the
product, or like commercial circumstances, a request
for disclosure is not necessary or practicable to avoid
infringement.
(4)(A) For purposes of this subsection, a
“request for disclosure” means a written
request made to a person then engaged in the
manufacture of a product to identify all
process patents owned by or licensed to that
person, as of the time of the request, that the
person then reasonably believes could be
asserted to be infringed under section 271(g)
if that product were imported into, or sold,

App-125
offered for sale, or used in, the United States
by an unauthorized person. A request for
disclosure is further limited to a request(i) which is made by a person regularly
engaged in the United States in the sale
of the same type of products as those
manufactured by the person to whom the
request is directed, or which includes
facts showing that the person making the
request plans to engage in the sale of
such products in the United States;
(ii) which is made by such person before
the person’s first importation, use, offer
for sale, or sale of units of the product
produced by an infringing process and
before the person had notice of
infringement with respect to the product;
and
(iii) which includes a representation by
the person making the request that such
person will promptly submit the patents
identified pursuant to the request to the
manufacturer, or if the manufacturer is
not known, to the supplier, of the product
to be purchased by the person making the
request, and will request from that
manufacturer or supplier a written
statement that none of the processes
claimed in those patents is used in the
manufacture of the product.
(B) In the case of a request for disclosure
received by a person to whom a patent is
licensed, that person shall either identify the

App-126
patent or promptly notify the licensor of the
request for disclosure.
(C) A person who has marked, in the manner
prescribed by subsection (a), the number of
the process patent on all products made by
the patented process which have been offered
for sale or sold by that person in the United
States, or imported by the person into the
United States, before a request for disclosure
is received is not required to respond to the
request for disclosure. For purposes of the
preceding sentence, the term “all products”
does not include products made before the
effective date of the Process Patent
Amendments Act of 1988.
(5)(A) For purposes of this subsection, notice of
infringement means actual knowledge, or
receipt by a person of a written notification,
or a combination thereof, of information
sufficient to persuade a reasonable person
that it is likely that a product was made by a
process patented in the United States.
(B) A written notification from the patent
holder charging a person with infringement
shall specify the patented process alleged to
have been used and the reasons for a good
faith belief that such process was used. The
patent holder shall include in the notification
such information as is reasonably necessary
to explain fairly the patent holder’s belief,
except that the patent holder is not required
to disclose any trade secret information.

App-127
(C) A person who receives a written
notification described in subparagraph (B) or
a written response to a request for disclosure
described in paragraph (4) shall be deemed to
have notice of infringement with respect to
any patent referred to in such written
notification or response unless that person,
absent mitigating circumstances(i) promptly transmits the written
notification
or
response
to
the
manufacturer or, if the manufacturer is
not known, to the supplier, of the product
purchased or to be purchased by that
person; and
(ii) receives a written statement from
the manufacturer or supplier which on
its face sets forth a well grounded factual
basis for a belief that the identified
patents are not infringed.
(D) For purposes of this subsection, a person
who obtains a product made by a process
patented in the United States in a quantity
which is abnormally large in relation to the
volume of business of such person or an
efficient inventory level shall be rebuttably
presumed to have actual knowledge that the
product was made by such patented process.
(6) A person who receives a response to a request
for disclosure under this subsection shall pay to
the person to whom the request was made a
reasonable fee to cover actual costs incurred in
complying with the request, which may not exceed
the cost of a commercially available automated

App-128
patent search of the matter involved, but in no
case more than $500.
(c)(1)
With respect to a medical practitioner’s
performance of a medical activity that constitutes
an infringement under section 271(a) or (b), the
provisions of sections 281, 283, 284, and 285 shall
not apply against the medical practitioner or
against a related health care entity with respect
to such medical activity.
(2) For the purposes of this subsection:
(A) the term “medical activity” means the
performance of a medical or surgical
procedure on a body, but shall not include (i)
the use of a patented machine, manufacture,
or composition of matter in violation of such
patent, (ii) the practice of a patented use of a
composition of matter in violation of such
patent, or (iii) the practice of a process in
violation of a biotechnology patent.
(B) the term “medical practitioner” means
any natural person who is licensed by a State
to provide the medical activity described in
subsection (c)(1) or who is acting under the
direction of such person in the performance of
the medical activity.
(C) the term “related health care entity”
shall mean an entity with which a medical
practitioner has a professional affiliation
under which the medical practitioner
performs the medical activity, including but
not limited to a nursing home, hospital,
university,
medical
school,
health

App-129
maintenance organization, group medical
practice, or a medical clinic.
(D) the term “professional affiliation” shall
mean staff privileges, medical staff
membership, employment or contractual
relationship, partnership or ownership
interest, academic appointment, or other
affiliation under which a medical practitioner
provides the medical activity on behalf of, or
in association with, the health care entity.
(E) the term “body” shall mean a human
body, organ or cadaver, or a nonhuman
animal used in medical research or
instruction directly relating to the treatment
of humans.
(F) the term “patented use of a composition
of matter” does not include a claim for a
method of performing a medical or surgical
procedure on a body that recites the use of a
composition of matter where the use of that
composition of matter does not directly
contribute to achievement of the objective of
the claimed method.
(G) the term “State” shall mean any State or
territory of the United States, the District of
Columbia, and the Commonwealth of Puerto
Rico.
(3) This subsection does not apply to the
activities of any person, or employee or agent of
such person (regardless of whether such person is
a tax exempt organization under section 501(c) of
the Internal Revenue Code), who is engaged in the
commercial development, manufacture, sale,

App-130
importation, or distribution of a machine,
manufacture, or composition of matter or the
provision of pharmacy or clinical laboratory
services (other than clinical laboratory services
provided in a physician’s office), where such
activities are:
(A) directly related to the commercial
development,
manufacture,
sale,
importation, or distribution of a machine,
manufacture, or composition of matter or the
provision of pharmacy or clinical laboratory
services (other than clinical laboratory
services provided in a physician’s office), and
(B) regulated under the Federal Food, Drug,
and Cosmetic Act, the Public Health Service
Act,
or
the
Clinical
Laboratories
Improvement Act.
(4) This subsection shall not apply to any patent
issued based on an application which has an
effective filing date before September 30, 1996.

